<html>
<title> - ENLISTING FOREIGN COOPERATION IN U.S. EFFORTS TO PREVENT NUCLEAR SMUGGLING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
   ENLISTING FOREIGN COOPERATION IN U.S. EFFORTS TO PREVENT NUCLEAR 
                               SMUGGLING 

=======================================================================




                                HEARING

                               before the

                     SUBCOMMITTEE ON PREVENTION OF
                     NUCLEAR AND BIOLOGICAL ATTACK

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2006

                               __________

                           Serial No. 109-81

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                               __________

                     U.S. GOVERNMENT PRINTING OFFICE

37-277 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





















                     Committee on Homeland Security

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

      SUBCOMMITTEE ON PREVENTION OF NUCLEAR AND BIOLOGICAL ATTACK

                     John Linder, Georgia, Chairman

Don Young, Alaska                    James R. Langevin, Rhode Island
Christopher Shays, Connecticut       EdwarD J. Markey, Massachusetts
Daniel E. Lungren, California        Norman D. Dicks, Washington
Jim Gibbons, Nevada                  Jane Harman, California
Rob Simmons, Connecticut             Eleanor Holmes Norton, District of 
Bobby Jindal, Louisiana              Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Linder, a Representative in Congress From the 
  State of Georgia, and Chairman, Subcommittee on Prevention of 
  Nuclear and Biological Attack..................................     1
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Ranking Member, 
  Subcommittee on Prevention of Nuclear and Biological Attack....     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland.......................................................     3
The Honorable Charlie Dent, a Representative in Congress From the 
  State of Pennsylvania..........................................    35
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washinton.........................................    37
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    31
The Honorable Christopher Shays, a Representative in Congress 
  From the State if Connecticut..................................    37

                               Witnesses

Mr. Jayson Ahern, Assistant Commissioner for Field Operations, 
  Customs and Border Protection, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. David Huizenga, Assistant Deputy Administrator, International 
  Material Protection and Cooperation, National Nuclear Security 
  Administration:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Frank Record, Acting Assistant Secretary of State for 
  International Security and Nonproliferation, Department of 
  State:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19
Mr. Vayl Oxford, Director, Domestic Nuclear Detection Office, 
  Department of Homeland Security:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                                Appendix

Questions and Responses from Mr. Jayson Ahern....................    41


                     ENLISTING FOREIGN COOPERATION
                       IN U.S. EFFORTS TO PREVENT
                           NUCLEAR SMUGGLING

                              ----------                              


                         Thursday, May 25, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                      Subcommittee on Prevention of Nuclear
                                     and Biological Attack,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2212, Rayburn House Office Building, Hon. John Linder 
[chairman of the subcommittee] presiding.
    Present: Representatives Linder, Shays, Gibbons, Dent, 
Langevin, Dicks, Norton, and Thompson, ex officio.
    Mr. Linder. The hearing of the Subcommittee on Prevention 
of Nuclear and Biological Attack will come to order. I would 
like to welcome my witnesses and thank them this afternoon for 
appearing before the subcommittee.
    The threat of nuclear terrorism is one that requires an 
immediate, complete and global response. As Congress works to 
strengthen our maritime and land borders, we understand that 
stopping an attack before it reaches the U.S. should be the 
highest priority.
    Increasing the security of our ports, for example, is key 
to preventing the smuggling of nuclear material. The SAFE Port 
Act, which the House recently passed, takes an important step 
toward that end. Prevention, however, given the consequences, 
is not the first option; it is the only option.
    And the U.S. simply cannot prevent nuclear attacks by 
acting alone. We need the support and active cooperation of 
friends and allies around the world. By helping them, they, in 
turn, help us keep this country safe.
    We have seen a number of cases where international 
cooperation has produced significant results. And in testimony 
to this subcommittee last year, it was noted that monitors 
deployed along the Russian border as part of the Department of 
Energy's second line of defense program recorded 14,000 hits, 
of which 200 were deemed worthy of investigation by Russian 
inspectors. This action would not have occurred without the 
U.S.-Russian cooperation.
    In October of 2003, uranium centrifuge parts en route from 
Malaysia to Libya were seized in an international interdiction 
effort involving multiple foreign entities. Equipment departed 
the Port of Dubai on a German-owned ship, the BBC China, and 
after passing through the Suez Canal, was diverted to the 
Italian port of Taranto for inspection and subsequent seizure.
    The Department of State's proliferation security initiative 
has built upon the successful model of cooperation.
    To better protect our homeland, we must expend our 
cooperative and international outreach efforts to obtain as 
much participation in U.S. nuclear counterproliferation 
programs as possible. At the same time, if we are to be 
confident in these programs, we must ensure that they are 
implemented effectively.
    So I have raised concerns that foreign inspection programs 
are vulnerable to corruption and that foreign operated 
detection equipment may not be used properly. It is important 
that we put in place measures to ensure that while our global 
network grows, it continues to be strengthened with better 
technology implemented under tighter bilateral control.
    Let me reiterate that this effort must strike a balance. 
The U.S. must ask neither too much nor too little of its 
foreign partners. We want foreign governments to sign on to 
this effort and work with us, but we also want their 
obligations to be fulfilled in a meaningful way. Achieving this 
goal will make both us and them safer.
    The focus of our hearing today is to assess this balance. 
It is my hope that the witnesses before us will share their 
experiences working with our foreign partners, both their 
progress and setbacks, so that we can better grasp what, if 
anything, needs to be done to ensure that these important 
programs are even more successful in the future.
    I now yield to my friend from Rhode Island for any 
statement he might make. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And I would like to 
thank our witnesses for appearing before us today.
    And I certainly look forward to your testimony.
    The threat of nuclear terrorism is real. Our government 
must move aggressively if we are going to prevent a nuclear or 
radiological attack on our shores. We must ensure that we have 
an integrated policy when our government negotiates security 
agreements with our foreign trading partners.
    On Tuesday, I had a very good meeting with Mr. Huizenga, 
and he made a compelling case as to why Megaports should stay 
within the Department of Energy. I am concerned, however, that 
certain countries can agree to participate in the Container 
Security Initiative, but not Megaports.
    I understand that these programs require foreign ports to 
perform different tasks, but the overall goal is the same, to 
prevent nuclear weapons from being smuggled in the container 
supply chain. I would like to hear how the Department of 
Homeland Security and the Department of Energy are leveraging 
existing foreign agreements to benefit both programs.
    I am also concerned about the deployment of radiation--or I 
should say the slow pace of deployment of radiation portal 
monitors at U.S. ports of entry. The recent GAO report of the 
Department of Homeland Security's progress on the deployment of 
radiation portal monitors confirmed my worst fears: our 
government is not moving fast enough to deploy radiation portal 
monitors.
    I want to state for the record that I do fully support the 
Domestic Nuclear Detection Office and its director Vayl Oxford. 
However, I am not satisfied with the fact that we still do not 
have a deployment strategy, and we have insufficient funding 
for this program.
    2009 is simply too long a time to wait to deploy radiation 
detection equipment at all of our ports of entry. And according 
to GAO that is the earliest that deployment will be completed. 
We simply cannot afford to wait that long to ensure that our 
Nation has basic nuclear deterrent capability.
    I would like the witnesses to address what the 
administration is doing to convince our foreign trading 
partners to sign joint Megaports-CSI agreements, what the 
administration is doing to complete the deployment of radiation 
portal monitors before 2009, and the status of the advanced 
spectroscopic portal program.
    Before I conclude, I would like to thank Al Thompson. I 
just want to pause, if I could, for a moment to thank Al 
Thompson for his years of service to me personally, and to this 
committee and to our country. As you know, Al is leaving for 
greener pastures, Mr. Chairman, and--
    Mr. Linder. There are lots of them out there.
    Mr. Langevin. I don't know about that.
    And this is his last hearing. So I just want to wish Al and 
his wife and his sons, Tyson and Hunter, all the best.
    Thank you.
    Mr. Linder. Does the gentleman from Mississippi seek to 
make a statement?
    Mr. Thompson. Yes, Mr. Chairman. I will be brief in light 
of the witnesses. As you know, I requested this hearing, and 
you and ranking member graciously agreed to it. There are some 
issues between DOE and Homeland Security that I think we need 
to get resolved.
    There is no sense in my mind for two entities going down 
the same street together and not, at least, coordinating what 
is happening. So this is an opportunity to hear the difference 
between the Megaports program with DOE and DNDO with homeland 
security. And I look forward to some of the issues that have 
been raised around it.
    I yield back.
    Mr. Linder. I thank the ranking member.
    I want to welcome our guests today, witnesses. Mr. Jayson 
Ahern is the Assistant Commissioner for Field Operations For 
Customs and Border Protection of the Department of Homeland 
Security. Mr. David Huizenga, the other Huizenga, is the 
Assistant Deputy Administrator of International Material 
Protection and Cooperation of the National Nuclear Security 
Administration. Mr. Frank Record is Acting Assistant Secretary 
of State for International Security and Nonproliferation at the 
Department of State. And our old friend Vayl Oxford is back, 
the Director of the DNDO. Welcome.
    Mr. Linder. Mr. Ahern, I would like to ask each of you to 
try to limit your comments. All of your written statements have 
been made part of the record, without objection. Please try to 
limit your comments to 5 minutes.
    Mr. Ahern.

  STATEMENT OF JAYSON AHERN, ASSISTANT COMMISSIONER FOR FIELD 
 OPERATIONS, CUSTOMS AND BORDER AND PROTECTION, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Ahern. Thank you, Mr. Chairman and other members here 
today. I am pleased to join my colleagues to discuss U.S. 
Customs and Border Protection's efforts in eliciting foreign 
cooperation and U.S. efforts to prevent nuclear smuggling.
    Mr. Chairman, CBP's mission is homeland security and 
keeping terrorists and their weapons of terror, including 
weapons of mass destruction, from getting into this country. 
After 9/11 CBP developed and implemented unprecedented 
initiatives, all driven by the understanding that the threat 
still very much exists, and that CBP must and will do 
everything humanly possible to prevent a second attack.
    Each year, 108 million cargo containers are transported in 
seaports around the world, and 11 million of those maritime 
containers come into the United States. That represents about 
90 percent of all the world's manufactured goods, moving by 
containers, much of it stacked high on board vessels destined 
for the United States.
    As such, CBP's mission is constantly a balancing act of 
protecting and facilitating legitimate travel and trade. But 
these dual missions are not mutually exclusive; they are, in 
fact, very complementary.
    Clearly, the risk to international maritime cargo demands a 
robust security strategy that can identify, prevent and deter 
threats at the earliest point in the international supply chain 
before arrival in the United States. In response, U.S. Customs 
and Border Protection has developed a cohesive national cargo 
security strategy that protects our national and global trade 
against the threat posed by international terrorism, but does 
so without impeding the flow of legitimate trade that could 
damage this country's economy.
    Our strategy to secure cargo moving into the United States 
is a layered strategy, based on many interrelated initiatives, 
that includes targeting and inspecting all high risk shipments 
through cooperation with foreign administrations and engaging 
the private sector to increase supply chain security. We do 
that by using information analysis targeting, employing 
advanced inspection technologies and expanding our zone of 
security by prescreening shipments that pose a risk prior to 
arrival in the United States.
    Those include programs such as a 24-hour initiative where 
we get our information 24 hours prior to lading overseas that 
supports our Container Security Initiative, which I would like 
to spend the balance of my time on.
    Before 9/11 there were no Customs and Border Protection 
officers working together with our counterparts in foreign 
countries to identify and screen high-risk shipments before 
they were bound for the United States. As of today, over 90,000 
such examinations have occurred and been performed in sovereign 
countries by our foreign partners.
    CSI was proposed in January 02 to enhance our ability to 
interdict terrorists and terrorist weapons prior to reaching 
United States seaports by inspecting containers abroad. Today, 
CSI and the Department of Energy-Megaports program are the 
multinational programs in the world, the only ones I might say, 
that actually are protecting the primary system of global trade 
containerized shipping from being exploited or disrupted by 
international terrorists.
    CSI adds security to the movement of maritime cargo 
containers to the U.S. and allows containers to move faster, 
more expeditiously and more predictably through the supply 
chain.
    The core elements of CSI identify the high-risk shipments, 
using the automated targeting tools we have developed, that 
pose potential risks for terrorism, based on advance 
information I have spoken about along with strategic 
intelligence. We prescreen and evaluate those containers before 
they are shipped, and the containers are screened early in that 
supply chain, most likely at the foreign ports of departure. 
Through the use of technologies such as large-scale x-ray 
machines and radiation detection devices, we prescreen those 
high-risk containers to ensure that screening can be done 
rapidly without slowing down the movement of trade.
    Through the CSI program, CBP deploys multidiscipline teams 
to include CBP officers, intelligence research specialists, and 
special agents from Immigration and Customs Enforcement to 
selected foreign seaports throughout the world. As of today, 
CSI is operational in 44 ports in Europe, Asia, Africa, the 
Middle East, North and Central and South America.
    Since CSI began in 2002, we have added an average of one 
port a month to the CSI fold. The 44 ports today represent 75 
percent of the maritime cargo containers that are destined for 
the United States.
    By the end of 2007, we plan to have CBP officers stationed 
at 58 total seaports in a foreign environment that will cover 
85 percent of the cargo containers destined for this country. 
And we will continue to foster relationships with other 
countries and our trading partners to ensure that we inspect 
all the high-risk containers before they are loaded on vessels 
to the United States.
    In addition, the World Customs Organization, the European 
Union and G-8 also support the CSI expansion and have adopted a 
resolution to introduce and implement security measures like 
those of CSI at ports throughout the world.
    Through a framework for security and facilitation of global 
trade unanimously adopted by 169 members of the World Customs 
Organization in June of 2005, CBP intends to promote harmonized 
standards for data elements, examinations and risk assessments. 
To date, over 130 of those 169 members have signed letters of 
intent signaling their commitment to implement the standards of 
the framework, which were built on the underlying tenets of the 
Container Security Initiative.
    In conclusion, we all know that America's borders and 
securing those borders is an ongoing and long-term effort. But 
I would say, since 9/11, our country has made great strides 
towards securing those borders, protecting trade and travel 
into this country and ensuring the vitality of the economy of 
this country. We are grateful for this opportunity to talk to 
this committee and the members today about our difficult and 
dual mission.
    I look forward to taking any opportunity for questions to 
be answered after the other witnesses have testified.
    Mr. Linder. Thank you, Mr. Ahern.
    [The statement of Mr. Ahern follows:]

                 Prepared Statement of Jayson P. Ahern

    Good afternoon Chairman Linder, Ranking Member Langevin and 
distinguished Member of the subcommittee. I am Jayson Ahern, Assistant 
Commissioner, Office of Field Operations, U.S. Customs & Border 
Protection (CBP). It is a privilege to appear before you today and I 
thank you for this opportunity to discuss the CBP programs that are 
fundamental to securing our ports of entry from the threat of nuclear 
terrorism.
    First of all, let me assure you that preventing the smuggling of 
nuclear weapons and radiological materials remains one of CBP's highest 
priorities. Although the focus of this hearing is on our relationship 
with our foreign partners and especially the Container Security 
Initiative (CSI), CBP employs a multi-layered defense strategy to 
substantially increase the likelihood that nuclear or radiological 
material will be detected.
    CBP has integrated its radiation detection technology deployment 
initiative into its multi-layered defense strategy to address the 
threat of nuclear and radiological terrorism that begins outside the 
United States where the movement of illicit nuclear and radiological 
materials is initiated and continues all the way to the U.S. borders.
    CBP, as the guardian of the Nation's borders, safeguards the 
homeland by protecting the American public against terrorists and the 
instruments of terror and ensuring all cargo and people enter this 
country legally. At the same time, CBP enforces the laws of the United 
States and fosters the Nation's economic security through lawful travel 
and trade.Sec. 
    In fiscal year 2005, CBP processed over 431 million passengers, 
more than 121 million land border passenger vehicles, 1 million 
aircraft, 113,325 vessels, and over 25 million sea, rail and truck 
containers. In fiscal year 2005, CBP made 22,727 arrests and 23,802 
narcotic seizures; seized over 798,000 pounds of narcotics, 
approximately $28 million in currency, and over $120 million in 
merchandise. We cannot protect against the entry of terrorists and the 
instruments of terror without performing all missions.
    We must perform all missions without stifling the flow of 
legitimate trade and travel that is so important to our nation's 
economy. We have ``twin goals''--building more secure and more 
efficient borders.

Meeting Our Twin Goals - Building More Secure and More Efficient 
Borders:
    As the single, unified border agency of the United States, CBP's 
missions are extraordinarily important to the protection of America and 
the American people. In the aftermath of the terrorist attacks of 
September 11th, CBP has developed initiatives to meet our twin goals of 
improving security and facilitating the flow of legitimate trade and 
travel. Our homeland strategy to secure and facilitate cargo moving to 
the United States is a layered defense approach built upon interrelated 
initiatives. They are: the 24-Hour and Trade Act rules, the Automated 
Targeting System (ATS), housed in CBP's National Targeting Center, the 
use of Non-Intrusive Inspection equipment and Radiation Portal 
Monitors, the Container Security Initiative (CSI), and the Customs-
Trade Partnership Against Terrorism (C-TPAT) initiative. These 
complementary layers enhance seaport security, and protect the nation.

Advance Electronic Information:
    As a result of the 24-Hour rule and the Trade Act, CBP requires 
advance electronic information on all cargo shipments coming to the 
United States by land, air, and sea, so that we know who and what is 
coming before it arrives in the United States. The 24-Hour Advanced 
Cargo Rule requires all sea carriers, with the exception of bulk 
carriers and approved break-bulk cargo, to provide proper cargo 
descriptions and valid consignee addresses 24 hours before cargo is 
loaded at the foreign port for shipment to the United States. Failure 
to meet the 24-Hour Advanced Cargo Rule results in a ``do not load'' 
message and other penalties. This program gives CBP greater awareness 
of what is being loaded onto ships bound for the United States and the 
advance information enables CBP to evaluate the terrorist risk from sea 
containers on 100% of shipments.

Automated Targeting System:
    The Automated Targeting System, which is used by the National 
Targeting Center and field targeting units in the United States and 
overseas, is essential to our ability to target high-risk cargo and 
passengers entering the United States. ATS is the system through which 
we process advance manifest and passenger information to detect 
anomalies and ``red flags,'' and determine which passengers and cargo 
are ``high risk,'' and should be scrutinized at the port of entry, or 
in some cases, overseas.
    ATS is a flexible, constantly evolving system that integrates 
enforcement and commercial databases. ATS analyzes electronic data 
related to individual shipments prior to arrival and ranks them in 
order of risk, based on the application of algorithms and rules. The 
scores are divided into thresholds associated with further action by 
CBP, such as document review and inspection.
    The National Targeting Center, working closely with the Coast 
Guard, also vets and risk scores all cargo and cruise-ship passengers 
and crew prior to arrival. This ensures that DHS has full port security 
awareness for international maritime activity.

Container Security Initiative (CSI) and Customs-Trade Partnership 
Against Terrorism (C-TPAT)--Extending our Zone of Security Outward & 
Partnering with Other Countries:
    In fiscal year 2005, over 11.3 million seagoing containers arrived 
at our nation's seaports. Another 11.3 million cargo conveyances 
arrived by land. About 90% of the world's manufactured goods move by 
container, much of it stacked many stories high on huge transport 
ships. Each year, two hundred million cargo containers are transported 
between the world's seaports, constituting the most critical component 
of global trade. The greatest threat to global maritime security is the 
potential for terrorists to use the international maritime system to 
smuggle terrorist weapons--or even terrorist operatives--into a 
targeted country.
    Clearly, the risk to international maritime cargo demands a robust 
security strategy that can identify, prevent and deter threats, at the 
earliest point in the international supply chain, before arrival at the 
seaports of the targeted country. We must have a cohesive national 
cargo security strategy that better protects us against the threat 
posed by global terrorism without choking off the flow of legitimate 
trade, so important to our economic security, to our economy, and, to 
the global economy.
    We developed a layered enforcement approach that addresses cargo 
moving from areas outside of the United States to our ports of entry. 
Our approach focuses on stopping any shipment by terrorists before it 
reaches the United States, and only as a last resort, when it arrives 
at a port of entry.
    The Container Security Initiative (CSI) and the Customs-Trade 
Partnership Against Terrorism (C-TPAT) initiatives bolster port 
security. Through CSI, CBP works with host government Customs Services 
to examine high-risk maritime containerized cargo at foreign seaports, 
before they are loaded on-board vessels destined for the United States. 
In addition to the current 44 foreign ports participating in CSI 
covering 75% of maritime containerized cargo shipped to the U.S., many 
more ports are in the planning stages. By the end of 2006, we expect 
that 50 ports, covering 82% of maritime containerized cargo shipped to 
the U.S. will participate in CSI.
    Through C-TPAT, CBP is establishing successful security practices 
for all parts of the supply chain, making it more difficult for a 
terrorist or terrorist sympathizer to introduce a weapon into a 
container being sent by a legitimate party to the United States. C-TPAT 
covers a wide variety of security practices, from fences and lighting 
to requiring that member companies conduct background checks on their 
employees, maintain current employee lists, and require that employees 
display proper identification.
    C-TPAT's criteria also address physical access controls, facility 
security, information technology security, container security, security 
awareness and training, personnel screening, and important business 
partner requirements. These business partner requirements encourage C-
TPAT members to conduct business with other C-TPAT members who have 
committed to the same enhanced security requirements established by the 
C-TPAT program.
    The C-TPAT program has created public-private and international 
partnership with approximately 6,000 businesses (over 10,000 have 
applied), including most of the largest U.S. importers. Forty-five 
percent of all merchandise imported into the United States is done so 
by C-TPAT member importers. C-TPAT, CBP and partner companies are 
working together to improve baseline security standards for supply 
chain and container security. CBP reviews the security practices of not 
only the company shipping the goods, but also the companies that 
provided them with any services.
    The validation process employed by CBP demonstrates and confirms 
the effectiveness, efficiency and accuracy of a C-TPAT certified 
member's supply chain security. At present, the C-TPAT program has 
completed validations on 30 percent (1,902 validations completed) of 
the certified membership, up from 8 percent (403 validations) completed 
a year ago. Additionally, validations are in progress on another 35 
percent (2,262 in progress) of certified members, and these validations 
will be completed throughout 2006, bringing the total percentage of 
certified members to 65 percent by year-end. In 2007, the C-TPAT 
program validations will continue. We will have validated 100 percent 
by the end of CY 2007.
    Additionally, CBP has moved to tighten minimum-security criteria 
for membership in this voluntary program. Working closely with the 
trade community and key stakeholders, CBP has developed and implemented 
baseline security standards for member importers, sea carriers, and 
highway carriers. CBP will complete this process by the end of CY 2006, 
defining the minimum-security criteria for the remaining enrollment 
sectors--air carriers, rail carriers, brokers, freight forwarders, and 
foreign manufacturers.
    In order to promulgate the best security practices, C-TPAT recently 
compiled and published a best practice catalog, which was distributed 
to all members and made available at its recent training seminar. Each 
year C-TPAT conducts an annual seminar providing additional security 
training and presentations from the trade community on how 
implementation of C-TPAT has improved their security and provided a 
measurable return on investment. C-TPAT will also be implementing a 
discussion board available on their secure web portal whereby members 
can exchange ideas and discussions on security practices and benefits.

Non-Intrusive Inspection Equipment and Radiation Detection Portals:
    CBP also uses cutting-edge technology, including large-scale X-ray 
and Gamma-ray Non-Intrusive Inspection (NII) systems to image cargo, 
and radiation detection devices to screen cargo for the presence of 
radiological materials.
    Since CBP was formed in March 2003, we have increased our large-
scale NII inventory by 60 systems, including 19 additional systems to 
the northern border, 16 additional systems to the southern border and 
25 additional systems to seaports. CBP currently has an inventory of 
176 large-scale NII systems deployed nationwide.
    In fiscal year 2005, CBP examined nearly 80 percent of all rail 
cars, nearly 25 percent of all land conveyances, and 5 percent of all 
sea-borne containers that arrived in the U.S. The majority of these 
examinations were accomplished with the use of large-scale NII 
technology. At a minimum, 100 percent of all high-risk conveyances are 
imaged with large-scale NII technology and screened with a hand-held 
Radiation Isotope Identifier Device for the presence of radiation. 
Approximately 2 million examinations were conducted with large-scale 
NII technology at our nation's ports of entry prior to 2003.
    In fiscal year 2005, that number increased to 5.4 million. Since 
March 2003, large-scale NII technology has been used to conduct 
approximately 12 million examinations. Since March 2003, in addition to 
large-scale NII technology, CBP has deployed over 700 additional 
Radiation Portal Monitors (RPM), 300 Radiation Isotope Identifier 
Devices (RIID) and approximately 6,000 Personal Radiation Detectors 
(PRD) to our ports of entry.
    CBP currently operates 791 RPMs at our nation's ports, including 
225 RPMs at seaports. RPMs are our most robust radiation detection 
devices that provide CBP with a passive non-intrusive means to quickly 
and thoroughly screen conveyances and/or shipments for the presence of 
illicit radiological materials. CBP has also deployed a total of 566 
RIIDs and approximately 13,000 PRDs to our nation's ports of entry.
    CBP currently screens 100 percent of mail and express consignment 
packages, 90 percent of all containerized cargo and 80 percent of all 
privately owned vehicles entering the U.S. along the Northern Border, 
90 percent of all containerized cargo and 82 percent of all privately 
owned vehicles entering the U.S. along the Southern Border, and 57 
percent of all arriving sea-borne containers for the presence of 
radiation with RPMs.
    Overall, CBP currently screens approximately 73 percent of all 
arriving land/sea containerized cargo entering the United States with 
RPMs. That number will continue to grow through the remainder of this 
year and 2007. CBP will deploy a total of 621 RPMs to our Nation's top 
seaports, which will allow us to screen approximately 98 percent of 
inbound sea-borne containers by December 2007. A portion of these 
deployed systems will be next-generation Advanced Spectroscopic 
Portals, which will begin to be deployed in mid-FY 2007. In addition, 
CBP will deploy 60 Mobile RPM Systems to seaports in 2006. Mobile RPMs 
will provide us with the flexibility to conduct screening operations at 
low-volume locations and to screen high-risk containers in a real-time 
fashion. Initial deployment of Mobile RPMs has recently taken place 
with 2 units deployed to Newark. The remaining 58 units are expected to 
be in place by the end of CY2006. CBP's ultimate goal is to screen 100 
percent of all high-risk people, cargo and conveyances for radiation.
    CBP has strict response protocols in place to address and resolve 
all radiation alarms. If our field officers require assistance in 
resolving a radiation alarm, technical reach-back support is available 
24 hours a day 365 days a year. Our Laboratories and Scientific 
Services (LSS) scientists located at the National Targeting Center 
provide that support. Beyond this support, further technical assistance 
is available through the DNDO Secondary Reachback program, which 
provides access to the nuclear design and spectroscopy expertise 
resident in the National Laboratories.
    To date, CBP has screened over 80 million conveyances with RPMs. 
Radiation-screening results are shared with other Federal agencies as 
well as certain State and Local entities as appropriate. The total 
number of gamma and/or neutron-related radiation alarms to date is over 
318,000. However, all alarms have been resolved and the overwhelming 
majority have been attributed to naturally occurring radioactive 
materials (NORM) or medical patients. Thus far, no RPM alarms have been 
attributed to the illicit transport of special nuclear material.
    Also, over 600 canine detection teams, capable of identifying 
narcotics, bulk currency, human beings, explosives, agricultural pests, 
and chemical weapons, are deployed at our ports of entry.

CBP Coordination with DNDO:
    In addition to increased screening efforts at our own ports of 
entry for radioactive and nuclear materials, the DHS Domestic Nuclear 
Detection Office (DNDO) fully endorses the concept of increased active 
and passive detection at foreign ports of departure. Foreign ports can 
also use the systems DNDO are acquiring and developing with a CSI 
presence, as well as the Department of Energy's Megaports program. We 
must continue to stress the need for increased screening at foreign 
ports of departure; while at the same time have a robust screening 
effort at our own ports of entry.

    The DNDO FY 2007 budget request of nearly $536 million includes 
$157 million for the acquisition and deployment of current and next-
generation radiation detection systems at our ports of entry. These 
systems will be deployed and operated by CBP. In addition, DNDO's FY 
2007 budget also includes funding for the development of enhanced cargo 
radiography screening systems for our ports of entry. CBP will continue 
to work closely with DNDO to explore new and emerging technologies in 
an effort to enhance our antiterrorism capabilities. These enhanced 
screening efforts will complement the many information-based programs 
CBP already has in place for enhanced port security.

CBP Coordination with DOE:
    As CBP moved forward with the CSI program, we have also developed a 
very important partnership with the Department of Energy and its 
Megaports program.
    CSI and Megaports are complementary programs, with both serving as 
elements of a comprehensive maritime security strategy. Megaports 
complements CSI in that it enhances foreign governments' capabilities 
to detect, deter, and interdict illicit trafficking in nuclear and 
other radiological materials and it provides another data element to 
support CSI targeting and evaluation of suspect containers.

Integrated Container Inspection System (ICIS):
    DHS and CBP acknowledge that the Hong Kong Container Terminal 
Operators Association (HKCTOA) and Science Applications International 
Corporation (SAIC) have taken an important step forward in an effort to 
improve container security. The Integrated Container Inspection System 
(ICIS) pilot demonstrates that the concept of collecting and 
integrating radiation detection spectral data with radiographic imaging 
on containers departing Hong Kong is complementary and consistent with 
our agency's goals.
    As the HKCTOA continues to make progress in collecting valuable 
screening data, CBP remains committed to working with the Association, 
the Hong Kong Customs & Excise Department and the Hong Kong Government 
to develop the policies, procedures and response protocols that will 
allow us to take full advantage of the investment the Hong Kong 
shipping community is making to better protect maritime trade and the 
global supply chain.
    CBP and DNDO meet regularly to discuss potential implementation 
strategies. Results from the ongoing analysis will impact future 
discussions.

Conclusion:
    In summary, as I have previously noted, CBP screens 100 percent (%) 
of containers for risk. All containers that CBP determines to be of 
risk are examined using a variety of technologies, either at the 
foreign port of loading under the Container Security Initiative, or 
upon arrival into the U.S. port of entry. The technologies used include 
radiation screening, non-intrusive x-ray inspection, and as 
appropriate, physical examination. CBP officers tasked with the 
security of our seaports carry out this screening and examination.
    Mr. Chairman, Members of the Subcommittee, I have briefly addressed 
CBP's critical initiatives today that will help CBP protect America 
against terrorists and the instruments of terror, while at the same 
time enforcing the laws of the United States and fostering the Nation's 
economic security through lawful travel and trade. With the continued 
support of the President, DHS, and the Congress, CBP will succeed in 
meeting the challenges posed by the ongoing terrorist threat and the 
need to facilitate ever-increasing numbers of legitimate shipments and 
travelers.
    Thank you again for this opportunity to testify. I will be happy to 
answer any of your questions.

    Mr. Linder. Mr. Huizenga.

                  STATEMENT OF DAVID HUIZENGA

    Mr. Huizenga. Good afternoon, and thank you, Mr. Chairman, 
Ranking Member Langevin and other distinguished members of the 
subcommittee for inviting us here today.
    I would like to take this opportunity to discuss progress 
made under the Megaports initiative, as well as to address some 
of the hurdles we must overcome to advance and accelerate 
overseas scanning of containers.
    I will focus my remarks in three areas, agreements of 
foreign countries, interagency cooperation and detection 
equipment.
    The Megaports initiative grew out of our comprehensive 
second line of defense program under which we had been 
installing radiation portal monitors overseas for more than a 
decade at land borders, seaports and airports, primarily in the 
former Soviet Union. Building on the 20 seaports we equipped in 
Russia, in 2003, we expanded this to Megaports worldwide. We 
began with a focus on the 20 CSI ports, based on the volume of 
containers shipped to the United States. We added a threat 
component to our prioritization strategy that led to our 
current list of approximately 70 Megaports which largely 
mirrors the current list of CSI ports that Mr. Ahern referred 
to.
    The number of countries signed on to the program has 
increased each year. We are currently working in 17 ports in 14 
countries and are close to signing agreements with 10 more 
countries.
    Completion of an agreement with the host nation is the 
first step toward implementation. The agreement establishes a 
clear understanding of roles and responsibilities by both 
parties and creates the necessary framework for us to be able 
to provide equipment, training and maintenance. Further, the 
agreement documents the host government's commitment to notify 
the U.S. Government of all detections or seizures of illicit 
nuclear or other radioactive materials.
    The DOE doesn't station people on the ground under 
Megaports as they do in CSI. Rather, we provide the equipment 
and training and allow the host governments to carry out their 
nonproliferation security responsibilities. Therefore, the 
effectiveness of this program depends on the commitment of our 
foreign partners to devote the necessary resources to monitor 
the detection systems and, most importantly, to detect and 
detain suspect containers and quickly and accurately resolve 
alarms, a task only they are authorized to perform.
     Unfortunately, the time it takes to establish such 
agreements can vary widely from one country to the next. For 
example, we negotiated with one country for 2 years without 
much progress; and then completed an agreement in 4 days in 
advance of a Presidential visit. So you can see, at times, we 
can use the leverage of high-level administration officials to 
trigger things to advance our cause, and indeed we try.
    Each sovereign country has its unique sensitivities and 
national security agendas. Questions generally center on how 
many customs agents will be needed to implement the program, 
whether port operations will be slowed in any way, and the 
sharing of potentially sensitive alarm data. The cooperation of 
terminal operators is always an important factor. And we are 
working with all the major private port operators.
    One area in which the cooperation of terminal operators is 
particularly important relates to transshipped cargo. Scanning 
container traffic moving through entry and exit gates is a 
relatively straightforward task, but assessing and accessing 
transhipped containers has proven to be more challenging. We 
are now working several strategies, however, with terminal 
operators to efficiently scan this transhipped container cargo.
    Despite the difficulties we have encountered, we have been 
successful in overcoming the concerns of both the host 
governments and the terminal operators and have, in fact, 
gained significant cooperation of a large number of important 
countries and significantly increased international recognition 
of the nuclear smuggling threat. We have done this by working 
with an interagency group. The Megaports initiatives is an 
integral element of the U.S. maritime security strategy, and we 
work closely with our interagency partners.
    From the beginning, we worked very closely with our 
partners in CBP's container security initiative. Our current 
effort to equip each CSI port with radiation detection 
capability is evidence of our partnership. We have undertaken 
over 20 joint outreach missions and port assessments with the 
CSI staff and have signed two joint agreements with foreign 
deployments and are anticipating signing several more yet this 
fiscal year.
    We are working closely with CSI to evaluate innovative 
approaches to scanning containers, such as the integrated 
container inspection system which has been tested as a pilot in 
Hong Kong. Indeed, I am leading an interagency delegation that 
includes CSI and State Department representatives this Memorial 
Day weekend to Hong Kong to assess this important technology 
and process.
    We also coordinated closely with DNDO in defining the 
global nuclear detection architecture and exploring mechanisms 
to share overseas alarm data. We plan on using DNDO's 
procurement vehicle to purchase advance spectroscopic monitors, 
thus benefiting from DNDO research and leveraging our joint 
buying power.
    Finally, we work closely with State Department here in 
Washington and the embassies around the world to ensure that 
our work is carried out as part of a wider U.S. Government 
foreign policy presence.
    Before I close, let me turn just briefly to the detection 
equipment. The radiation detection equipment deployed under 
Megaports is a proven technology developed to ensure nuclear 
material security at the DOE weapons sites. The equipment 
includes fixed, handheld and at times portable detection 
systems which have been evaluated by our national laboratories, 
as well as at the DNDO test facility in Nevada.
    At the same time, we recognize the need for the next 
generation of equipment. We are closely tracking research and 
development efforts at DNDO and within DOE and hope that such 
equipment will provide increased power to identify shielded 
nuclear materials and better support the prompt adjudication of 
alarms.
    In closing, I would like to restate that the Megaports 
Initiative is dedicated to preventing the smuggling of nuclear 
and radiological material at international seaports; we 
accomplish this goal by working with foreign governments and 
terminal operators, maintaining strong relationships with other 
agencies and departments of the U.S. Government and deploying 
the best and appropriate technology for the job.
    We firmly believe that the unique capabilities of each 
department and agency are being leveraged to accomplish our 
common objective of preventing nuclear material from reaching 
the shores of the U.S.
    Thank you.
    Mr. Linder. Thank you Mr. Huizenga.
    [The statement of Mr. Huizenga follows:]

                  Prepared Statement of David Huizenga

    Thank you Mr. Chairman, Ranking Member Langevin and other 
distinguished members of the Subcommittee. I am pleased to have this 
opportunity to highlight the substantial progress we have made in 
expanding the Megaports Initiative to high priority countries. I would 
also like to take a few minutes to describe some of the hurdles we must 
overcome to accelerate the radiation scanning of overseas container 
traffic. The topic of today's hearing is a priority for our country and 
indeed for the world. The risk of nuclear terrorism is not limited to 
the United States and the success of our efforts to detect and deter 
nuclear smuggling is very much dependent on whether our foreign 
partners share a common recognition of the threat and a willingness to 
combat it. For that reason, we have expended a significant amount of 
efforts on international outreach to garner support for this critical 
initiative.
    I am the Assistant Deputy Administrator for the National Nuclear 
Security Administration's (NNSA) Office of International Material 
Protection and Cooperation (IMPC). My office is one of six program 
offices within the Office of Defense Nuclear Nonproliferation (DNN). 
The collective mission of DNN is to detect, prevent, and reverse the 
proliferation of weapons of mass destruction. Our programs are 
structured in support of multiple layers of defense against nuclear 
terrorism and state-sponsored nuclear proliferation. This multi-layered 
approach is intended to identify and address potential vulnerabilities 
within the international nonproliferation regime, to limit terrorists' 
access to deadly weapons and material, and to prevent the illicit 
trafficking of dangerous materials that could be used in a nuclear or 
radiological weapon. The Megaports Initiative plays a critical role 
within the IMPC program.

Megaports Mission
    We established the Megaports program in response to the concern 
that terrorists and states of concern could use the global maritime 
shipping lanes to smuggle nuclear or other radiological material. The 
Megaports mission is focused on preventing the trafficking of nuclear 
material or weapons to our borders as well as interdicting nuclear 
smuggling attempts within regions of concern. In support of these 
objectives, we work with host nations to install radiation detection 
equipment at foreign ports to provide the capability to scan 
containerized cargo for the potential presence of radiation.
    We have been installing radiation monitors overseas for more than a 
decade at land borders, seaports, airports, and nuclear facilities, 
mostly in the Former Soviet Union. Building on the 20 seaports we 
equipped in Russia under the Second Line of Defense program, we 
expanded to large seaports worldwide in 2003 (i.e., Megaports). We 
began with a focus on the first 20 Container Security Initiative (CSI) 
ports, whose selection was based on sheer volume to the United States. 
We later added a threat component to our prioritization strategy 
following consultations with the Intelligence Community, private-sector 
threat specialists, and our national labs. This led to our current list 
of approximately 70 ports of interest under Megaports.
    I am pleased to report that we have steadily increased the number 
of countries participating in the Megaports program over the last three 
years. We are currently working in 14 ports, are close to signing 
agreements with about 10 more countries, and are in various stages of 
discussions with another 10. We have purchased equipment to outfit 
several more ports and have contracts in place to support design, 
engineering and construction. Once all 70 ports are equipped, we 
conservatively estimate that we will be scanning at least 40 percent of 
global traffic and over 50 percent of U.S.-bound containers.

Role in NNSA's Nonproliferation Strategy
    The Megaports Initiative is a key component of NNSA's larger 
strategy to prevent the diversion of nuclear weapons and material. 
Since the fall of the Soviet Union in the early 1990s, we have focused 
on securing nuclear materials and weapons at well over one hundred 
research, storage and manufacturing facilities in Russia and other 
states of the Former Soviet Union. Backed by strong Congressional 
support, we are on track to complete these security upgrades by the end 
of 2008. By addressing the vulnerabilities at nuclear facilities, 
NNSA's global nonproliferation programs seek and capitalize on the 
widely accepted notion that working close to the source of a threat is 
the most effective way to reduce risks to the United States.
    Our Second Line of Defense Program, which enhances security on 
foreign borders by providing a technical tool to interdict illicit 
trafficking in nuclear and radiological materials, is a natural 
complement to these activities. The deployment of radiation detection 
systems at high-risk land border crossings, airports and seaports 
provide a backstop to the nuclear site security systems, increasing the 
likelihood that nuclear materials stolen from protected facilities will 
be detected and interdicted.
    The Second Line of Defense (SLD) program was also designed to 
confront the threat of nuclear terrorism as close to the source of the 
threat as possible. Given the vast amount of nuclear material spread 
across Russia's nuclear complex, our cooperative work with the Federal 
Customs Service of the Russian Federation to secure Russian points of 
entry and exit remains our highest priority. However, we have expanded 
SLD deployments to countries of the Former Soviet Union and Eastern 
Europe and established the Megaports program in recognition that 
significant quantities of nuclear materials are generated and stored 
outside of Russia and that redundant layers of detection are necessary 
to address such a grave threat.

Agreements with Foreign Partners
    The completion of agreements with our foreign partners is key to 
our ability to implement the Megaports Initiative. The long-term 
benefit of the program will largely hinge upon the strength of our 
international cooperation, and these agreements lay the foundation for 
this cooperation. These agreements represent a political commitment by 
both governments and document a mutual understanding of overall roles 
and responsibilities. At times it can be difficult to put these 
agreements in place, despite the best efforts of the U.S. Ambassadors 
and high-level focus within the Administration.
    The agreements create a framework for NNSA's provision of the 
necessary radiation detection equipment as well as the follow-on 
training and maintenance assistance to support the Megaports mission. 
The terms of our agreements make clear that host government officials 
are responsible for the operation of the equipment and the response to 
all alarms. In addition to these commitments, they also contain 
important clauses that protect NNSA's interests such as the 
understanding that NNSA will not pay foreign taxes on the assistance it 
provides, a position that is consistent with Congressional guidance on 
this topic. Most importantly, the agreements document the host 
government's commitment to notify the U.S. Government of all detections 
or seizures of illicit nuclear and other radioactive materials made as 
a result of the use of NNSA supplied equipment.
    In a number of instances, concluding Megaports agreements has 
required several months and sometimes years of active engagement. While 
there are obvious mutual security benefits of implementing Megaports, 
there are also inherent resource commitments that must be met by the 
host government to successfully implement the Megaports program. The 
effectiveness of the program depends on the host government's 
willingness to devote the resources necessary to operate the detection 
systems and quickly resolve alarms. Only the host nation has the 
authority to adjudicate suspicious or suspect containers. In many 
cases, the host government must hire or realign staff to continuously 
man the Central Alarm Station and to conduct secondary inspections for 
high-risk containers. Finally, the data sharing provisions of the 
agreements touch on sensitive national security and sovereignty 
matters. In light of these commitments, a decision to join the 
Megaports program usually requires interagency approval at the most 
senior levels of the host government and this can take a significant 
period of time. All prospective partners understandably seek to ensure 
that Megaports cooperation is within their national interest. In many 
cases, our negotiation process is often influenced by broader bilateral 
issues that a host country may choose to link to progress on Megaports 
discussions. As with all foreign negotiations, our effectiveness is 
dependent on the degree of leverage at our disposal. We are 
continuously seeking additional ways to convince host countries to 
embrace the program. For example, we highlight the new World Customs 
Organization standards requiring radiation detection during our efforts 
to elicit foreign interest in the program. The growing number of 
agreements we have signed has also created added incentive for other 
countries to join the Megaports program, as they observe our progress 
in their region and witness the benefits of our cooperation. We also 
attempt to capitalize on Presidential and other Administration 
officials? visits to bring difficult negotiations to conclusion. By way 
of example, one country in particular refused to conclude negotiations 
for over two years, but then agreed to complete an agreement in a 
matter of four days due to a Presidential visit. Finally, the 
additional Congressional focus on international port security is bound 
to help in this regard as well.
    While we establish formal agreements with foreign governments, the 
cooperation of terminal operators in foreign ports is always an 
important factor in the successful implementation of the Megaports 
program. To that end, we have engaged the terminal operators early on 
in the discussions with our foreign partners to ensure their buy-in and 
to determine the optimal placement of the detection systems. 
Additionally, we often benefit from the willingness of these terminal 
operators to exert pressure on the host government to implement the 
program. We have ongoing exchanges with all of the major private port 
terminal operators by virtue of the negotiations and implementation 
activities we are currently supporting. In fact, we have already agreed 
upon an arrangement with one of the largest port terminal opertators to 
partner in ports where they have an interest in funding the 
installation of radiation detection systems. While drawing the private 
sector into our outreach discussions is an important part of the 
Megaports strategy, is essential to establish agreements with host 
governments, who perform the vital tasks of resolving alarms and 
detaining suspect containers. In short, we must continue to focus our 
efforts on persuading foreign customs services to adopt the program 
along with the private sector, since sovereign countries will not 
accept private sector inspections of cargo in their ports.
    Finally, while accelerating the completion of agreements is 
important, it will not in and of itself solve one of the more complex 
issues in overseas scanning--capturing transshipped cargo. Working 
directly with terminal operators is imperative to address this issue. 
Although scanning containers as they enter or exit a gate is relatively 
straightforward for terminal operators, scanning transshipped cargo can 
be a complex challenge. Containers are unloaded from one ship, placed 
on the dock for a varying period of time, and placed on another ship, 
without ever transiting a natural choke point where it would be 
convenient to set up radiation portal monitors. Operators must disrupt 
normal operations to drive transshipped containers to a location for 
scanning. Since timing is so critical to port efficiency and 
competitiveness, we recognize that a country's decision to join the 
Megaports program hinges on the perceived impact to port operations. We 
continue to work on strategies with host governments and terminal 
operators to scan transshipped cargo with minimal impact on the 
terminal operations.

Interagency Relationships
    As with all of our international programs, we recognize that 
closely coordinating Megaports activities with those of related 
programs within other departments and agencies reinforces our 
objectives and is important to our success. The Megaports Initiative is 
an integral element of the U.S. maritime security strategy, 
complementing the Department of Homeland Security's (DHS) Container 
Security Initiative (CSI), Coast Guard's International Port Security 
Program (IPSP) and the Department of State?s Proliferation Security 
Initiative (PSI).

Partnership with CSI
    We have long recognized that Megaports and CSI form synergistic 
layers in the larger, multi-tiered defense against nuclear terrorism. 
We have accordingly built and maintain a strong partnership with DHS's 
Bureau of Customs and Border Protection to closely align the 
implementation of the two programs. In support of this partnership, we 
are working to equip each CSI port with a radiation detection 
capability. The extraordinary collaboration and coordination between 
CSI and the Megaports Initiative is evident in the over 20 joint 
outreach missions, port assessments, briefings, and high level meetings 
we have undertaken and the joint agreements we have signed with foreign 
partners. We have already signed two joint Megaports-CSI agreements 
with Oman and Honduras, anticipate signing several more this year and 
continue to seek additional opportunities to jointly implement both 
programs. Signing such joint agreements is arguably the best way to 
leverage our interagency partnership and accelerate Megaports.
    Given the critical role that technology plays in support of our 
common goal, we have also partnered with CSI to evaluate innovative 
scanning configurations, such as the Integrated Container Inspection 
System (ICIS) deployed in the port of Hong Kong. Adding an imaging 
capability to the detection system should help reduce secondary 
inspections and may play a role in analyzing the risk of non-alarmed 
containers. We are further investigating opportunities with CSI to 
partner with private sector port terminal operators. Many private 
sector port terminal operators are keenly aware that in the era of 
globalization, a nuclear or radiological incident at one port could 
adversely impact the entire global trading system. We welcome the 
private sector's promotion of stronger port security measures and 
believe that an appropriate partnership with the private sector could 
accelerate the number of ports equipped to detect nuclear smuggling.
    We will continue to explore additional avenues to leverage our 
partnership with CSI to accelerate the implementation and augment the 
effectiveness of Megaports. I strongly believe that the best way to 
expand overseas scanning of cargo containers is to continue to build 
upon the strong ties between our two agencies.

DNDO
    Another important interagency relationship is that with the 
Domestic Nuclear Defense Office (DNDO). Because the SLD program forms a 
critical layer in the global nuclear detection architecture, NNSA and 
DNDO's cooperation in the campaign to reduce the threat of nuclear 
terrorism is crucial. Given our role as the primary agency responsible 
for international deployment of radiation detection equipment, we 
routinely exchange information with DNDO to ensure that our efforts fit 
cohesively together in support of a comprehensive global architecture. 
In support of DNDO?s mission, we are jointly exploring the means to 
share the overseas alarm data from SLD deployments directly with DNDO.
    We are working collaboratively to establish operational 
requirements for future detection systems. We support DNDO's 
operational testing and evaluation program, as improvements in nuclear 
detection equipment will benefit our international deployment efforts. 
Currently, we are exploring the possibility of joining DNDO?s 
procurement vehicles to leverage our combined purchasing power to 
reduce overall costs to the taxpayers and accelerate our deployments.
    We look forward to further strengthening this relationship as we 
move toward implementation of the DHS vision to more fully integrate 
radiation detection systems world-wide to better evaluate potential 
threats to the United States and to the global transportation system.

Department of State
    We could not be successful in the development and implementation of 
this international effort without a close relationship with the State 
Department. On that front, we work closely with the Office of Export 
Control Cooperation and the Office of Weapons of Mass Destruction and 
Terrorism to coordinate with one another in carrying out our 
complementary missions. The Office of Export Control Cooperation chairs 
a bi-monthly Interagency Working Group to coordinate efforts of 
agencies and programs involved in the area of export control and 
related border security and holds periodic meetings to discuss 
strategic and country-specific visions and priorities, as well as to 
discuss the planned scope of work in specific countries. Under the 
Second Line of Defense program, we periodically execute projects on 
behalf of the State Department to provide radiation detection systems. 
This helps to ensure consistent deployment of systems and allows us to 
provide more efficiently for the maintenance of the equipment.
    The State Department also leads the Nuclear Trafficking Response 
Group, an interagency group that is responsible for ensuring rapid 
dissemination of information pertaining to significant trafficking 
incidents and for coordinating recommendations on diplomatic and other 
responses to such incidents. In doing so, the NTRG seeks to advance USG 
interests in (1) securing smuggled material and the facilities from 
which they were diverted, (2) encouraging the prosecution of those 
involved, and (3) developing information on related security threats, 
e.g. connections between smugglers and terrorists.
Detection Equipment
    The radiation detection equipment currently being deployed by NNSA 
under the SLD program is proven technology that was developed to ensure 
nuclear material security at DOE weapons sites. NNSA currently provides 
host country partners with an integrated suite of equipment, which 
includes radiation portal monitors that utilize plastic scintillators 
and Helium-3 tube technology to detect highly enriched uranium, 
plutonium, and other radioactive isotopes. The comprehensive system 
also includes computers and cameras and, as appropriate, Optical 
Character Recognition (OCR) equipment to collect and transmit alarm 
information for analysis by host country Customs officials. Finally, 
handheld equipment is supplied that is used to conduct secondary 
inspections to isolate and identify radioactive sources within 
containers, vehicles, or on persons. The equipment has been evaluated 
by our technical experts at the National Laboratories as well as at the 
Domestic Nuclear Defense Office's test facility in Nevada and has 
proven to be operationally effective and robust in harsh, and often 
remote, international environments.
    That being said, we recognize that there are limitations in its 
capabilities and that there is a need for next generation equipment 
that will identify both highly enriched uranium and plutonium with a 
high degree of efficiency and will support the prompt adjudication of 
innocent alarms so as not to impede commerce flow. We are closely 
tracking the efforts within the NNSA and DNDO research and development 
programs so that we may capitalize on advancements in detection 
capabilities. For example, we are working with DNDO to purchase a 
number of Advanced Spectroscopic Portals (ASP) as soon as the equipment 
has been sufficiently evaluated and is ready for deployment. The ASP is 
expected to enhance the ability of Customs officials to resolve alarms 
by providing a more sophisticated capability to quickly identify the 
radioactive isotopes of concern. NNSA plans to use the ASPs at 
Megaports locations as secondary inspection tools and, as necessary, 
for primary inspection at locations that have larger traffic volumes.
    We have also initiated efforts to modify existing technologies to 
address scanning challenges in transshipment ports. For example, in the 
Port of Freeport in The Bahamas, we expect to be able to scan more than 
90 percent of the transshipped cargo using a straddle carrier vehicle 
outfitted with radiation detection equipment, including spectroscopic 
detection capabilities. This modified straddler can travel through rows 
of shipping containers in the stacks, a reverse of our normal 
deployment strategy that is based on the permanent placement of the 
detection equipment and transit of the container through the portal. 
While this approach is not applicable at all ports, for those terminals 
that stack in a compatible configuration, this type of deployment 
provides an opportunity to maximize scanning of transshipped 
containers. We are also working closely with the private sector on 
other promising mobile configurations to address transshipment at ports 
with more traditional stacking configurations.
    Finally, we continue to look to the future and eagerly await the 
development of even more revolutionary detection enhancements, such as 
the Cargo Advanced Automated Radiography System (CAARS) currently under 
development within DNDO. This advanced radiography system will provide 
better imaging in drive through capacities and is expected to improve 
our ability to identify shielded highly enriched uranium in 
containerized cargo.

Conclusion
    In closing, I would like to restate that the Megaports Initiative 
under the NNSA/SLD Program is dedicated to preventing the smuggling of 
nuclear and radiological material at international seaports. We 
accomplish this goal by working closely with foreign governments and by 
maintaining strong relationships with other agencies and departments in 
the U.S. Government. We firmly believe that the unique capabilities of 
each department and agency are being leveraged to accomplish our common 
objective of preventing nuclear material from reaching the shores of 
the United States.

    Mr. Linder. Mr. Record.

 STATEMENT OF HON. FRANK RECORD, ACTING ASSISTANT SECRETARY OF 
      STATE FOR INTERNATION SECURITY AND NONPROLIFERATION

    Mr. Record. Thank you, Mr. Chairman. I want to start by 
thanking you and Ranking Member Langevin and other 
distinguished members of the subcommittee, as well as Chairman 
King and Ranking Member Thompson for giving me the opportunity 
today to address one of our most urgent national security 
priorities.
    Over the last decade, the nuclear threat to our national 
security has undergone fundamental transformation. Today, we 
face the risk of a terrorist acquiring nuclear and radiological 
material from shadowy networks of smugglers, state sponsors of 
terrorism and organized criminal elements; and then deploying 
such material in the form of a nuclear device or dirty bomb 
against one of our cities.
    We recognize that we cannot meet this challenge alone and 
must work with like-minded nations around the world who will 
join us in achieving this objective. Building on the Department 
of State's lead responsibility to engage foreign governments 
and institutions, we place the highest emphasis on enlisting 
foreign cooperation to prevent nuclear smuggling.
    We currently manage a number of programs and initiatives 
that address this issue, both through the provision of 
financial assistance to foreign governments as well as through 
cooperative activities to deter, interdict and prevent 
terrorist acquisition and the use of nuclear and radiological 
material.
    Let me begin by making two overarching points about our 
approach to enlisting international cooperation. First, I would 
like to point out, the State Department oversees efforts to 
prevent nuclear smuggling built on years of collaboration with 
the Departments of Energy and Defense, as well as the 
establishment of cooperative links with the recently 
established Domestic Nuclear Detection Office, DNDO.
    Second, we must recognize that each country that we work 
with faces unique challenges to do their part to prevent 
terrorists from acquiring or using a nuclear weapon. In fact, 
no two countries share identical risks from nuclear smuggling 
or nuclear terrorism.
    Some countries, for example, may suffer from poor border 
controls or lack of laws, regulations or enforcement capacity 
to stop the smuggling activities. Other countries may have laws 
and security forces to interdict and bring to justice nuclear 
smugglers, but only a limited means to detect movement of 
material or related transactions.
    Today, I will provide an overview of Department programs 
and initiatives established in whole or in part to prevent 
nuclear smuggling. I will also make some brief remarks about 
our efforts to implement Secretary Rice's vision of 
transformational democracy.
    First, I would like to talk to you about the activities of 
the Export Control and Related Border Security program, EXBS 
program, which is designed to help source--to help key source 
transit and transshipment countries, develop and improve their 
strategic trade and related border patrol systems.
    In developing and improving these systems, we work to 
ensure conformity within international standards for 
controlling items on lists of nonproliferation export control 
regimes and also to prevent the authorization and transfer of 
end uses and end users of proliferation concern and to detect 
and interdict illicit transfers at the border.
    In building countries' capacities in this critical area, 
the EXBS program helps key partners meet their obligations and 
commitments pursuant to other important U.S. and international 
initiatives, such as U.N. Security Council's Resolution 1540 
proliferation security initiative, which I will address in a 
minute, and adherence to a number of multilateral export 
regimes.
    Now, with respect to the deployment of radiation detection 
equipment, the State Department's Office of Export Control 
Cooperation manages the EXBS program and coordinates the 
efforts of other U.S. agencies and facilitates the efforts of 
other agencies includingSec.  by helping them to conclude 
government-to-government agreement.
    While the Department of Energy's National Nuclear Security 
Administration provides the bulk of the radiation portal 
monitors deployed to foreign governments, in certain 
circumstances the EXBS program provides some portal monitors in 
close consultation with NNSA, based on a memorandum of 
understanding through our agents.
    For instance, this MOU clarifies that NNSA agrees to 
maintain the equipment, as it does for other U.S.-provided 
portal monitors, including a substantial number of those 
provided previously by the State Department's Nonproliferation 
Disarmament Fund.
    As a complement to the overall effort to build enforcement 
capacity, the EXBS program also provides handheld radiation 
detection equipment, imaging devices and enforcement training, 
targeting and inspecting cargo to help partner countries 
prevent illicit transfers of weapons and weapons-related items, 
including nuclear and radioactive material.
    In addition, the proliferation--another important program 
of the Department of State is proliferation security initiative 
PSI. It is a global effort launched by President Bush on May1, 
2003, to stop the trafficking of weapons of mass destruction 
and their delivery systems and related materials to and from 
state and nonstate actors of proliferation concern. Its 
underlying premise is that our efforts in this area are 
enhanced through partnership of states working in concert, 
employing a broad range of legal, diplomatic, economic, 
military and other tools to interdict WMD-related shipments.
    The PSI creates the basis for practical cooperation among 
state partners. It is a set of activities based on 
participating countries' common commitments to the PSI 
statement of interdiction principles. It is not, however, a 
formal organization. Endorsement of the statement of 
interdiction principles by a state does not create formal 
obligation, but it does represent a political commitment to 
stop proliferation-related shipments whenever and wherever 
possible.
    The principles are consistent with national legal 
authorities and relevant international law and framework. 
Participation in any given PSI activity is a voluntary national 
decision. And we encourage PSI partners to strengthen their 
national legal authorities and enforcement capabilities to 
improve their ability to interdict WMD trafficking.
    The primary focus of PSI is on interdicting WMD-related 
shipments. To prepare for these interdictions, participants 
engage in a wide range of operational exercises, with more than 
50 countries participating in one or more of our interdiction 
exercises.
    Mr. Chairman, I know you mentioned the BBC interdiction, 
that was one of the interdictions of PSI operations and was an 
example of a number of countries successfully working together 
to meet this threat.
    Mr. Chairman, I realize I am just about out of time, so I 
would be glad to answer any questions that you or your 
colleagues have about our other programs relating to the 
nuclear smuggling outreach initiative as well as the NTRG 
efforts as well.
    Mr. Linder. Thank you.
    [The statement of Mr. Record follows:]

                Prepared Statement of Francis C. Record

Introduction
    Mr. Chairman, I want to start by thanking you, along with Ranking 
Member Langevin and the other distinguished members of the 
subcommittee, for giving me the opportunity today to address one of our 
most urgent national security priorities.
    Over the last decade, the nuclear threat to our national and 
homeland security has undergone a fundamental transformation. Today we 
face the risk of a terrorist acquiring nuclear and radiological 
material from shadowy networks of smugglers, state sponsors of 
terrorism, and organized criminal elements, and then deploying such 
material in the form of a nuclear device or dirty bomb against one of 
our cities.
    We recognize that we cannot meet this challenge alone and must work 
with like-minded nations around the world that will join with us to 
achieve this objective. Building on the Department of State's lead 
responsibility to engage foreign governments and institutions, we place 
the highest emphasis on enlisting foreign cooperation to prevent 
nuclear smuggling. We currently manage a number of programs and 
initiatives that address this issue, both through the provision of 
financial assistance to foreign governments as well as through 
cooperative activities to deter, interdict, and prevent terrorist 
acquisition and use of nuclear and radiological material.
    Let me begin by making two overarching points about our approach to 
enlisting international cooperation in this mission. First, the State 
Department's overseas efforts to prevent nuclear smuggling build on 
years of collaboration with the Departments of Energy and Defense, as 
well as the establishment of cooperative links with the recently-
established Domestic Nuclear Detection Office (DNDO). Second, we must 
recognize that each country faces unique challenges to do their part to 
prevent terrorists from acquiring or using a nuclear weapon. In fact, 
no two countries share identical risks from nuclear smuggling or 
nuclear terrorism. Some countries may suffer from poor border controls 
and lack the laws, regulations, and enforcement capacity to stop 
nuclear smuggling. Other countries may have laws and the security 
forces to interdict and bring to justice nuclear smugglers but only 
limited means to detect the movement of material or related illicit 
transactions. To succeed in this complex environment, we must ensure 
that our risk assessments and our programs account for country and 
region-specific factors. In short, diplomatic approaches that may work 
with one country or a group of countries will often not work with 
others.
    Today, I will provide an overview of Department programs and 
initiatives established in whole or in part to prevent nuclear 
smuggling. I will also explain how our recent reorganization has 
strengthened our ability to implement Secretary Rice's vision of 
Transformational Diplomacy.
    There are four specific programs and initiatives in this area--the 
Export Control and Related Border Security program, the Proliferation 
Security Initiative, the Nuclear Smuggling Outreach Initiative, and the 
Nuclear Trafficking Response Group--and I will begin first with an 
overview of our

Export Control and Border Assistance Program.
    The Export Control and Related Border Security (EXBS) program is 
designed to help key source, transit and transshipment countries 
develop and improve their strategic trade and related border control 
systems. In developing and improving these systems, we work to ensure 
conformity with international standards for controlling items on the 
control lists of the nonproliferation export control regimes, to 
prevent the authorization of transfers to end-uses and end-users of 
proliferation concern, and to detect and interdict illicit transfers at 
the border. In building countries' capacity in this critical area, the 
EXBS program helps key partners meet their obligations and commitments 
pursuant to other important U.S. and international initiatives, 
including U.N. Security Council Resolution 1540, the Proliferation 
Security Initiative, and adherence to the multilateral export control 
regimes, and it advances U.S. efforts to establish a global WMD 
detection architecture.
    With respect to the deployment of radiation detection equipment, 
the State Department's Office of Export Control Cooperation, which 
manages the EXBS program, has two main roles. The first is to 
coordinate with and support the efforts of other U.S. agencies in order 
to avoid duplication and ensure that deployments occur on a prioritized 
basis, and the second is to facilitate the efforts of other agencies, 
including helping them conclude government-to-government agreements. 
While the Department of Energy's National Nuclear Security 
Administration (NNSA) provides the bulk of the radiation portal 
monitors deployed to foreign governments, in certain circumstances the 
EXBS program provides some portal monitors in close coordination with 
NNSA based on a Memorandum of Understanding between our agencies. For 
instance, this MOU clarifies that NNSA agrees to maintain the 
equipment, as it does for other U.S.-provided portal monitors, 
including the substantial number provided previously by the State 
Department's Nonproliferation and Disarmament Fund. All of these 
equipment deployments are subject to the NSC's Nuclear Guidelines, and 
are coordinated via the State Department-chaired Export and Border 
Control Assistance Working Group as well as the International Nuclear 
Detection Working Group.
    As a complement to the overall effort to build enforcement 
capacity, the EXBS program also provides handheld radiation detection 
equipment, imaging devices, and enforcement training in targeting and 
inspecting cargo to help partner countries prevent illicit transfers of 
weapons and weapons-related items, including nuclear and radioactive 
material.

Proliferation Security Initiative
    The Proliferation Security Initiative (PSI) is a global effort, 
launched by President Bush on May 31, 2003, to stop trafficking of 
weapons of mass destruction, their delivery systems, and related 
materials to and from states and non-state actors of proliferation 
concern. Its underlying premise is that our efforts in this area are 
enhanced through partnerships of states working in concert, employing a 
broad range of legal, diplomatic, economic, military, and other tools 
to interdict WMD-related shipments. The PSI creates the basis for 
practical cooperation among states in this area.
    The PSI is a set of activities based on participating countries' 
common commitment to the PSI Statement of Interdiction Principles. It 
is not a formal organization. Endorsement of the Statement of 
Interdiction Principles by a state does not create formal 
``obligations'', but does represent a political commitment to stop 
proliferation-related shipments whenever possible. The Principles are 
consistent with national legal authorities and relevant international 
law and frameworks. Participation in any given PSI activity is a 
voluntary national decision. We encourage PSI partners to strengthen 
their national legal authorities and enforcement capabilities to 
improve their ability to interdict WMD-related trafficking.
    The primary focus of PSI is on interdicting WMD-related shipments. 
To prepare for interdictions, participants engage in a range of 
operational exercise activities. More than 50 countries have 
participated in one or more of the over 20 multinational PSI 
interdiction exercises designed to improve national capabilities and 
participants' ability to operate together. These exercises are hosted 
throughout the world by individual PSI participants. PSI participants 
have also conducted sophisticated simulations of interdictions to 
develop new and creative methods for stopping proliferation shipments. 
The PSI Operational Experts Group--an expanding network of military, 
law enforcement, intelligence, and legal experts--meets periodically to 
develop new operational concepts, organize the interdiction exercise 
program, share information about national legal authorities, and pursue 
cooperation with key industry sectors.
    We are further operationalizing the PSI by pursuing and concluding 
bilateral shipboarding agreements. We have signed agreements with the 
world's largest ship registries, thereby covering much of the world's 
shipping tonnage. Shipboarding agreements establish key points of 
contact and procedures to facilitate requests to board and search 
vessels suspected of carrying illicit shipments of weapons of mass 
destruction, their delivery systems, or related materials. They also 
serve to deter proliferators. We are pursuing these agreements covering 
vessels in international waters with a number of countries.
    More than 70 countries now support PSI, and the number is growing. 
We are working intensively to broaden the circle of countries that 
count themselves as PSI supporters. On June 23, Poland will host a 
high-level political meeting of all PSI participants, to assess the 
Initiative to date and plan for its continued broadening and deepening 
of participation and activity.

Nuclear Smuggling Outreach Initiative
    The State Department also enlists foreign cooperation against 
nuclear smuggling through a new Nuclear Smuggling Outreach Initiative, 
which is aimed at identifying and addressing shortcomings and gaps in 
nuclear smuggling security capabilities of states at risk. Through this 
initiative, we conduct outreach both to countries with source material 
as well as those at risk from nuclear smuggling activity. Our outreach 
builds on interagency assessments of country-specific risks that take 
into account existing programs and ongoing work, both by the United 
States and by other governments. These assessments address the 
capabilities of host governments to prevent, detect, and prosecute 
illicit trafficking in nuclear and radiological material.
    Following a rigorous assessment process, an interagency team 
engages with officials of the at-risk state to determine its precise 
needs and to reach agreement on a list of priority projects designed to 
close the capability gaps identified in the assessment. We then work 
closely with potential donors in various fora to arrange funding for 
the priority projects identified and agreed to. The matching of 
priority projects to donors can occur under the auspices of the 
European Union, the G8's Global Partnership or directly in bilateral 
discussions with donor governments.
    The success of the Nuclear Smuggling Outreach Initiative depends to 
a large degree on the willingness of the government of the at-risk 
country to participate and to use the assistance effectively. Assessing 
and engaging an at-risk country can take months, and matching suitable 
donors to worthy projects can take a similar period of time. Although 
still in a start-up phase, the Nuclear Smuggling Outreach Initiative is 
showing promising signs based on the initial round of assessments 
completed.

Nuclear Trafficking Response Group
    For over ten years, the State Department has chaired an inter-
agency committee, the Nuclear Trafficking Response Group (NTRG) that 
was established pursuant to a Presidential Decision for the purpose of 
reducing the risk of illicit transfer of nuclear weapons, fissile 
materials, and other dangerous nuclear and radioactive substances to 
states or to terrorists. The goals of the NTRG are to develop 
information on smuggling-related threats, secure smuggled material, 
encourage foreign governments to prosecute nuclear smugglers and trace 
linkages between smuggling incidents and gangs. Representatives from 
the Departments of Energy, Defense, Justice and Homeland Security, 
along with other agencies, participate in the NTRG's deliberations. The 
functions performed by the NTRG include: identifying the material and/
or verifying that an illicit transfer is or has taken place, which may 
include facilitating an inspection by competent foreign and/or USG 
authorities; helping to secure the illicit material to prevent its 
transfer; obtaining a sample of the illicit material for further expert 
testing; tracing the diversion path of the illicit material; and 
facilitating criminal prosecution of traffickers. Any or all of these 
tasks may be performed in addressing a single incident of potential 
illicit trafficking or smuggling.
    The NTRG obtains its information from a combination of open and 
classified sources, including reports from foreign governments and 
international organizations such as the IAEA. In addition to actions 
that it coordinates, the NTRG examines cases to see if actions, such as 
interdictions or emergency response measures, should be taken by other 
inter-agency groups. Much of the State Department's work in chairing 
the NTRG consists of facilitating foreign cooperation with U.S. 
Government technical experts so our experts can inspect and identify 
suspect materials and help foreign governments verify evidence needed 
to apprehend and prosecute smugglers. Successful prosecutions can help 
to deter smugglers and active U.S. engagement with foreign governments 
can encourage partner nations to take additional steps to combat 
nuclear smuggling.

Transforming our Diplomacy to Combat 21st century Nuclear Threats
    I would also like to take a moment to explain how our work in 
preventing nuclear smuggling fits in with the larger context of 
Secretary Rice's vision of transformational diplomacy. As the Secretary 
articulated in her Georgetown University speech, the essence of 
transformational diplomacy is:
        ``to work with our many partners around the world, to build and 
        sustain democratic, well-governed states that will respond to 
        the needs of their people and conduct themselves responsibly in 
        the international system. Let me be clear, transformational 
        diplomacy is rooted in partnership; not in paternalism. In 
        doing things with people, not for them; we seek to use 
        America's diplomatic power to help foreign citizens better 
        their own lives and to build their own nations and to transform 
        their own futures.''
    Our efforts to combat nuclear smuggling and the risk of nuclear 
terrorism must build on this transformational vision of partnership--
both at home and abroad. The many interagency and foreign partnerships 
that we develop and sustain in this mission will help to bring a 
regional and local focus to our international cooperation efforts and 
enhance the effectiveness of our global strategy.
    A transformational approach to preventing nuclear smuggling should 
seek not only to provide assistance to foreign partners but to develop 
a global interoperable architecture with them. Recognizing that no 
single capability can assure success in stopping nuclear smuggling or 
preventing nuclear terrorism, we, as the U.S. Government, are building 
a global architecture that includes multiple layers and enables the 
U.S. and its partners to confront threats at their earliest stage of 
development. We call this approach a layered defense-in-depth. A 
layered defense against nuclear smuggling and nuclear terrorism focuses 
attention on stopping the flow of material at the source, detecting the 
movement of material or related illicit transactions, responding to 
material en route to a terrorist or to a terrorist target, and 
mitigating consequences and attributing responsibility should an attack 
involving nuclear or radiological material take place.
    As the Secretary has outlined, transformational diplomacy also 
demands that we empower our diplomats to work more closely with their 
interagency partners. Our initiatives in this area and the recent 
formation of our new International Security and Nonproliferation Bureau 
build on this vision of joint interagency cooperation. For example, the 
Proliferation Security Initiative, whose implementation is supported by 
our new Office of Counterproliferation Initiatives, is a Presidential-
level initiative that brings together representatives from the 
Departments of State, Defense, Homeland Security, and Commerce, among 
others, to interdict shipments of WMD and related materials. Our new 
Office of WMD Terrorism represents the State Department in national-
level strategic operational planning regarding the nexus of WMD and 
terrorism at the new National Counterterrorism Center and is developing 
a new model bilateral agreement to enable the real-time sharing of 
nuclear and radiological detection information with foreign partners to 
enable faster emergency response. The work of the International 
Security and Nonproliferation Bureau, as a whole, will continue to 
foster the necessary interagency partnerships to strengthen our ability 
to prevent, detect, and respond to the trafficking of nuclear and 
radiological materials to state, non-state, and terrorist actors of 
concern.
    As I alluded to earlier in my testimony, transformational diplomacy 
emphasizes the importance of regionalizing and localizing our efforts. 
In combating nuclear smuggling and terrorism, we cannot remain content 
with one-size-fits-all global approaches. We must ensure that our 
strategies, initiatives, and plans are tailored to the specific 
conditions prevailing within our partner countries. In some, the 
private sector will play the lead role in improving security. In 
others, international organizations will be the engine of cooperation. 
In still others, joint interagency teams will be required to achieve 
mission success. Regional differences may also affect our approach. 
Some regions may be centers of nuclear smuggling, while others may be 
at greater risk from a terrorist attack enabled by a smuggling 
transaction occurring thousands of miles away.
    Transformational diplomacy also offers us an opportunity to build 
new kinds of partnerships that transcend the State Department's 
customary relationships with foreign governments and international 
organizations. We must consider the appropriate role the private sector 
can and should play to prevent nuclear smuggling and reduce the risk of 
nuclear terrorism. For example, terrorists may identify potential 
smugglers or smuggling routes through the Internet, whose 
infrastructure is privately owned. Smugglers may engage in illicit 
financial transactions with organized crime or terrorist networks 
through banking institutions and nuclear and radiological material may 
pass through ports, airports, or intermodal transport infrastructure 
owned or operated by the private sector.
    With this in mind, we need to make clear to the private sector the 
common interest we share in ensuring that their assets and 
infrastructure are protected from either direct attack or from 
exploitation by terrorist actors seeking to acquire or use nuclear or 
radiological materials. We must develop voluntary public-private 
partnerships that offer a low-cost means to reduce the risk of nuclear 
smuggling and nuclear terrorism. For example, we are encouraged by the 
efforts underway at the port of Hong Kong to develop a pilot project to 
scan outgoing containers coming to the U.S. This pilot project suggests 
that the intermodal transport industry is becoming increasingly aware 
of both the reputational and transactional risks it faces from those 
actors who would exploit its infrastructure to transport the world's 
most dangerous weapons.

Conclusion
    The State Department has taken many steps since September 11, 2001 
to reduce the risk of nuclear smuggling and enlist foreign cooperation 
in our efforts, but we can--and must--do more. Since 2002, we have been 
guided by the National Strategy to Combat Weapons of Mass Destruction, 
which provided the first comprehensive strategy to integrate all 
elements of national power to combat the threat of weapons of mass 
destruction. In the years ahead, we will continue to build on this 
strategy and work with our international partners to build a flexible 
global architecture capable of adapting to, confronting, and defeating 
the nuclear threats that lie ahead.

    Mr. Linder. Mr. Oxford.

STATEMENT OF VAYL OXFORD, DIRECTOR, DOMESTIC NUCLEAR DETECTION 
            OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Thank you, Mr. Chairman, Ranking Member 
Langevin and distinguished members of the subcommittee. It is 
my pleasure to come before you today to discuss how we are 
dealing with the threats associated with nuclear and 
radiological terrorism. I would like to thank the committee for 
the opportunity to share the progress we are making within the 
DNDO and at DHS in general.
    Today, I would like to discuss several topics related to 
the use of technology to detect radiological and nuclear 
materials that could be used in a terrorist attack. I will 
review the DNDO accomplishments in the past year and some of 
our program priorities for the upcoming years. I will touch 
upon the progress we have made with Customs and Border 
Protection and the Department of Energy regarding the 
deployment of radiation detection technologies, both overseas 
and domestically, and how DNDO, and the larger interagency 
community, are exploring innovative approaches to screening 
containers abroad.
    Before describing these efforts, I would like to thank our 
partners in the Department of Energy, the Department of State 
and CBP, who are here with me today, as well as the Department 
of Defense, the FBI and the NRC for their contributions to our 
interagency office.
    A few of our accomplishments over the last year and some of 
our priorities for the future include the fact that we have 
completed the first-ever global detection architecture and, in 
doing so, have identified key priorities and vulnerabilities 
across the Federal, State and local arenas. We have completed 
the initial phase of the advanced spectroscopic portal program 
that will provide RPMs that will both detect radiation and 
discriminate between threat and nonthreat materials.
    We have completed the high fidelity test and evaluation 
campaign to measure improvements and performance that those 
systems will provide. And that data is currently informing our 
source selection process for the vendors that will go forward 
to low-rate production for our next generation systems. We have 
begun the Cargo Advanced Automated Radiography System program 
to deliver imaging systems that will automatically detect high-
density materials that could be used to shield threat material 
from detection by radiation portal monitors.
    The DNDO is also working with Federal, State and local 
partners to refine the U.S. Government's approach to alarm 
response and adjudication, with a focus on improving technical 
reachback capabilities to support operations. As part of this 
operational support activity, the DNDO is leading an effort to 
develop a comprehensive U.S. Government process for alarm 
resolution.
    Regarding overseas deployment of the detection technology, 
this committee, and others, have expressed particular interest 
in the progress of deployment of radiation detection 
technologies overseas. So I would like to spend a couple of 
minutes addressing this topic.
    The DNDO is an interagency office that has a unique 
perspective in which to evaluate the effectiveness of programs 
such as Megaports and CSI. As I have stated in the past, DNDO 
is charged with developing the global nuclear detection 
architecture, but implementation of this plan continues to be 
dispersed among our partner agencies. In its role as the global 
detection architect, DNDO will continue to advocate for 
programs with merit and highlight areas for improvement in 
those programs.
    I want to make it very clear that Megaports and CSI 
programs are critical to protecting against the nuclear and 
radiological threat, and currently are the best means for 
expanding efforts overseas to detect threats before they reach 
the U.S.
    Overall, Megaports and CSI operate in tandem at any port, 
providing the opportunity to gather more information about 
individual containers in order to assess risk prior to those 
containers departing for U.S. ports. As the architecture 
evolves, the DNDO will bring forward program recommendations to 
include the use of advanced systems for Megaports and CSI to 
close identified gaps in our layered defense. For example, we 
have ongoing discussions with Megaports about the merits of 
deploying advanced systems overseas to include the ASP program.
    We also continue to highlight the need for more consistent 
and stringent information-sharing requirements if U.S. funds 
are to continue to be used to deploy systems overseas. The 
information-sharing clause within each Megaports agreement 
stipulates that the host country will notify the in-country, 
designated U.S. Government official of data on detections or 
seizures made as a result of the use of equipment provided. 
DNDO, through its Joint Analysis Center, works with DOE and CBP 
in the sharing of information and the alarm resolution process 
overseas.
    Deploying these technologies and having in place solid 
information-sharing agreements will get us closer to the goal 
pushing our Nation's borders outward and increasing the chances 
that we will stop a threat before it reaches our shores. 
However, we should look at other opportunities for developing 
new strategies and for expanding this capability overseas.
    As the committee knows, there is a pilot project at the 
Hong Kong Modern Terminal called the ICIS program. It is a 
model for public and private partnership, but it is just a 
model. It is important to note that ICIS, as currently 
deployed, is not an operational system. It utilizes currently 
available technology that is not optimized for radiation 
detection.
    DHS and others have sent teams to observe the ICIS pilot 
and determined that the technology they have has potential. In 
fact, as Mr. Huizenga pointed out, a joint team is returning to 
Hong Kong this weekend to review ICIS once more.
    But the important lesson we have learned is that private 
sector container screening can be compatible with the U.S. 
Government's layered defense strategy and is another tool to 
further our abilities overseas. However, such efforts must 
supplement, not replace, the need for advanced data reporting 
at ports at home and abroad.
    For the sake of time, Mr. Chairman, I will conclude with 
that and be glad to answer any questions.
    Mr. Linder. Thank you, Mr. Oxford.
    [The statement of Mr. Oxford follows:]

                  Prepared Statement of Vayl S. Oxford

    Introduction
    Good afternoon, Chairman Linder, Ranking Member Langevin, and 
distinguished members of the subcommittee. It is my pleasure to come 
before you today to discuss how we are responding to the threat of 
nuclear or radiological terrorism. I would like to thank the committee 
for the opportunity to share the progress we are making at DNDO and 
within the Department of Homeland Security (DHS).
    Today, I would like to discuss several topics related to the use of 
technology to detect nuclear and radiological materials that could be 
used in a terrorist attack. I will review DNDO accomplishments in the 
past year, some of our program priorities for the upcoming years, and 
key, long-term challenges that we face. I will specifically touch upon 
the progress we have made with Customs and Border Protection (CBP) and 
the Department of Energy (DOE) regarding the deployment of radiation 
detection technologies overseas, and how DNDO and the larger 
interagency community are exploring innovative approaches to screening 
containers abroad.
    Before describing our efforts, I would like to point out that 
protecting the United States from nuclear threats is a job that extends 
beyond the work of DNDO and I would like to thank our partners, in 
particular the Departments of Energy (DOE), Defense and State, and CBP, 
who are here with me today, as well as the Federal Bureau of 
Investigation (FBI) and the Nuclear Regulatory Commission (NRC) for 
their tireless dedication to this mission and for their contributions 
to our interagency office.

DNDO Accomplishments and the Road Ahead
    In the year since its founding, the DNDO has taken major steps 
towards achieving its stated mission. We completed the first ever 
global nuclear detection architecture analysis, which identified 
vulnerabilities and priority initiatives across Federal, State, and 
local governments. The architecture study was completed four months 
ahead of schedule and briefed to partner agencies and the White House 
in October and November of 2005. This architecture effort was funded 
and led by DNDO, but involved considerable interagency participation to 
deliver a consensus strategy.
    Other accomplishments include our acceleration of several 
technology development programs. We have completed the initial 
engineering development phase of the Advanced Spectroscopic Portal 
(ASP) program. This system development and acquisition program is 
improving current generation radiation portal monitors with the ability 
not only to detect the presence of radiation, but to identify the 
materials causing the alarms so that we can dismiss non-threatening 
sources. This enhanced capability will provide significant improvement 
for CBP secondary inspection operations, as well as greatly reduce 
secondary referral rates when operated as a means of primary 
inspection. Last fall, these engineering development programs 
culminated in the first ever high fidelity test and evaluation campaign 
to measure the true improvement in performance provided by these next-
generation systems. The test data collected is now being used to 
support the selection of multiple vendors to begin low-rate initial 
production (LRIP). Additionally, these vendors will continue the 
development of the technology so we can deliver enhanced capabilities 
and additional design variants for unique operational venues. Twenty-
four of the ASP LRIP units will be delivered to CBP for operational 
test and evaluation in the fall of this year, with full-rate production 
expected to begin in 2007.
    We have recently begun the Cargo Advanced Automated Radiography 
System (CAARS) development program to deliver imaging systems that will 
automatically detect high-density material within cargo that could be 
used to shield threat materials from detection by radiation portal 
monitors like ASP. The automated image processing techniques envisioned 
for CAARS will also substantially improve throughput rates over current 
generation radiography systems. These improved throughput rates will, 
in turn, enable CBP and other operators to effectively scan a much 
higher portion of cargo. Ultimately, ASP and CAARS systems must be 
deployed together to ensure our ability to detect either unshielded or 
shielded materials across the entire threat spectrum.
    The DNDO is also working with Federal, State, and local partners to 
refine the U.S. Government's approach to alarm response and 
adjudication, with a focus on improving technical reachback 
capabilities to support operations. As alarms escalate, this program 
will provide technical expertise to operators to ensure that alarms are 
resolved properly or, if necessary, that alarms are elevated to the 
appropriate response assets. As part of this operational support 
activity, the DNDO is leading an effort to develop a comprehensive U.S. 
Government process for alarm resolution that brings our procedures in 
line with the drastically altered security environment that we now 
face. This new alarm resolution process represents the first 
restructuring of the Federal alarm resolution and response protocols in 
over a decade.
    Even with all of the accomplishments I have outlined, there are 
still key, long-term challenges in our detection architecture that 
require a well-supported research and development program. These 
challenges include detecting threat materials from greater distances, 
in highly cluttered backgrounds, and in the presence of shielding and 
masking materials. We are launching initiatives to develop technologies 
to meet these challenges, as well as commencing a broad basic research 
program across private industry, the national labs, and academia to 
stimulate the entire field of nuclear detection sciences.

Overseas Deployment of Detection Technology
    This committee has expressed particular interest in the progress of 
deployment of radiation detection technologies overseas. I would like 
to take the opportunity to address this topic in detail.
    The DNDO has been afforded, given its interagency nature, a unique 
perspective from which to evaluate the effectiveness of both Megaports 
and the Container Security Initiative (CSI). As I have stated in the 
past, while the DNDO was charged with developing the global nuclear 
detection architecture, implementation of this plan continues to be 
dispersed amongst multiple agencies. In its role as the original 
architect, the DNDO will continue to advocate for programs with merit 
and highlight areas for improvement. I want to make it very clear that 
the Megaports and CSI programs are critical to protecting against the 
nuclear and radiological threat, and are the best means of expanding 
efforts overseas to detect threats before they reach U.S. shores. 
Overall, Megaports and CSI operating in tandem at any port provides the 
opportunity to gather more information about individual containers in 
order to assess risk prior to those containers departing for U.S. 
ports.
    While the collaboration between Megaports and CSI is significant 
and continues to increase, we continue to look at opportunities to 
increase radiation detection effectiveness overseas. The most important 
question that arises is: how can we, as the Federal Government, 
assemble all these existing programs into a cogent international 
strategy that significantly reduces risk? At a strategic level, the 
efforts of Megaports and CSI have been incorporated into the 
development of the international portion of the DNDO global detection 
architecture. We view Megaports as a complement to CSI in that it 
enhances host governments? capabilities to detect, deter, and interdict 
illicit trafficking of nuclear and other radiological materials, and it 
could provide another data element to support CSI targeting and 
evaluation of suspect containers. As the architecture evolves, the DNDO 
will bring forward options and recommendations at a programmatic level 
to include the use of advanced detection systems for Megaports and CSI 
to close identified gaps in our layered defense. We are in ongoing 
discussions about the potential merit of deploying next-generation ASP 
systems overseas through Megaports.
    We also continue to highlight the need for more consistent and 
stringent information sharing requirements if U.S. funds are to 
continue to be used to deploy systems overseas. The information-sharing 
clause within each Megaports agreement stipulates that the host country 
will notify the in-country designated U.S. government official of data 
on detections or seizures made as a result of the use of the equipment 
provided. For sites where CSI personnel are present, DOE is developing 
procedures with host country counterparts whereby CSI is notified of 
alarms on containers bound for the U.S. The DNDO, through its Joint 
Analysis Center, pledges to work with partners like DOE and CBP to help 
secure agreements for more timely and uniform information sharing.
    Deploying better technologies and having in place solid information 
sharing agreements will get us closer to our goal of ``pushing out the 
Nation's borders'' and increasing the chances that we will stop a 
threat before it reaches our shores. But as this Committee has 
recognized, there still remains the key challenge of negotiating with 
our foreign partners. If we cannot talk to the right people and get 
agreements into place, progress overseas will slow dramatically. 
Therefore, we need to change the way we approach our partners overseas 
and we need to change who we approach.
    We now need to focus our attention upon building the existing 
relationships that Megaports and CSI have already established. An 
integrated international port security program must include strong 
partnerships with the international community, as well as private 
industry. Currently, we will continue to work with host countries to 
expand scanning opportunities, including information sharing, and 
strategic partnerships with private industry.
    There is a pilot project at the Hong Kong Modern Terminal called 
the Integrated Container Inspection System, or ICIS, which is a model 
for public-private partnership, as well as a model for comprehensive 
passive and active inspection. It is important to note that ICIS, as 
deployed, is not an operational system. It utilizes currently available 
technology that is not optimized for radiation detection. DHS has sent 
teams to observe the ICIS pilot and determined that the technology they 
have used has potential, but still faces significant limitations. But 
the important lesson we have learned is that private sector container 
screening can be compatible with the U.S. Government's layered security 
strategy, and is another tool to further our ability to identify and 
address risks in an expedited manner. However, such efforts must 
supplement, not replace, the need for advance data reporting and 
targeted inspection at ports at home and abroad.
    The DNDO favors an integrated system approach. This would enable us 
to detect unshielded or lightly shielded materials with current and 
next-generation RPMs like ASP, as well as automatically detect highly-
shielded threat materials using a radiographic scanner like CAARS. 
Detector data should be analyzed by the U.S. Government prior to cargo 
transit, with the CBP Automated Targeting System (ATS), manifest and 
detector data integrated for enhanced targeting capability. Additional 
targeted inspection utilizing mobile advanced RPMs with radiography 
systems could be performed upon arrival at a port of entry. Possible 
approaches could include public-private partnerships with the mandate 
that the U.S. Government would receive all raw data streams. This type 
of integrated cargo inspection system, one that combines targeting, 
passive detection, radiographic imaging and information analysis would 
be a robust solution to the nuclear and radiological detection 
challenges that we face.

Conclusion
    In conclusion, the DNDO recognizes that the successful deployment 
of these technologies must be done as part of a larger strategy, one 
that extends to deployments executed by other agencies. Whether we are 
addressing the issue of port security and overseas screening or we are 
supporting the detection efforts first responders, the systems that we 
put in place must be well connected and work within an environment that 
responds to information obtained from intelligence, counterterrorism, 
and law enforcement communities.
    This concludes my prepared statement. With the committee's 
permission, I request my formal statement be submitted for the record. 
Chairman, Congressman Langevin, and Members of the Subcommittee, I 
thank you for your attention and will be happy to answer any questions 
that you may have.

    Mr. Linder. Mr. Record, were you folks involved with the 
DNDO in defining this global architecture?
    Mr. Record. Yes, we played a role in that process.
    Mr. Linder. And you are still doing that?
    Mr. Record. Yes.
    Mr. Linder. Mr. Oxford, do other nations have better 
detection equipment than we have? What is the state of the 
technology?
    Mr. Oxford. Mr. Chairman, most of the systems that are 
fielded to date overseas are pretty much replicas of what we 
were fielding in the plastic portal systems. They are pretty 
much plastic scintillator material. The Russians have developed 
and deployed some of those, but they are very similar in terms 
of the systems we are currently deploying.
    Mr. Linder. Mr. Ahern, how many of the 8 million containers 
that leave the American ports for other nations are inspected?
    Mr. Ahern. On the outbound numbers, I don't have them 
specifically.
    Mr. Linder. Rough guess?
    Mr. Ahern. Very few. Very few.
    Mr. Huizenga. Very few.
    Mr. Linder. Why do we expect them to cooperate with us and 
inspect all of the containers coming to the United States when 
we are not doing it for them? Mr. Ahern.
    Mr. Ahern. One of the things, certainly we are taking a 
look at initially, was risk for the United States in the post-
9/11 environment. That is why we want to begin the strategy 
with pushing the layers out.
    One of the things, through the World Customs Organization 
in part of the global security framework, is to take a look at 
should there be a reciprocal aspect to it? That is something we 
are considering, and having dialogue with countries, as part of 
the global framework and the World Customs Organization.
    Mr. Linder. Are you involved with this global partnering 
also?
    Mr. Ahern. We are very much partnering with DNDO.
    Mr. Linder. I have been recently to the Dubai port and 
Taiwan and seen how our customs folks are on the ground--very 
cooperative environment. And if a suspicious container comes 
either through the scoring mechanism that they provide to the 
terminal operators or the operators find something suspicious, 
they get called over to look at it.
    Why don't we have technology that gives us, in our own 
offices of our own customs folks, a real-time view of what that 
inspector, what that x-ray machine is doing?
    Mr. Ahern. I think the simple answer is, the technology is 
not there today to do that. That is certainly one of the goals 
that we are looking for as we go forward with expansion of the 
overseas footprint.
    The radiography, as well as the radiation read, can 
actually be remoted to a location in one of our CSI offices 
overseas so we can have the ability to look at it right there, 
then take that information, match it up with the manifest and 
the targeting score so we have a complete picture of that 
transaction.
    Mr. Linder. It is my understanding that states can refuse 
to inspect containers that we consider to be high-risk, and 
that early on in this program, some of that was going on.
    Is that still the case or is it, is our relationship better 
than it was?
    Mr. Ahern. The relationship is much better. It certainly is 
country-by-country specific, and in each one of the countries 
we have different relationships as we go forward.
    I would go back to one of the key points in my testimony I 
did speak about, though, that since we started this program in 
2002, 90,000 containers that posed an imminent risk to the 
United States were examined overseas.
    There is oftentimes some debate of what poses a risk. And 
when we do have an imminent risk posed to the United States 
through a container of shipments destined for this country, and 
if we cannot get the host country counterpart to examine it, we 
will issue a Do Not Lade order to the carrier, so it is not 
brought to this country.
    Mr. Linder. Ninety percent of high-risk containers were 
inspected?
    Mr. Ahern. Ninety thousand is the number I used.
    Mr. Linder. And how many of those yielded a concern?
    Mr. Ahern. At the end they were resolved.
    Mr. Linder. They were?
    Mr. Ahern. They were resolved to be not of risk for any 
kind of a significant nuclear radiological incident.
    Mr. Linder. We have 70 ports right now, Mr. Huizenga?
    Mr. Huizenga. That is right, Mr. Chairman. There are 70 
ports on our priority list.
    Mr. Linder. And we have contracts with how many?
    Mr. Huizenga. We have contracted now with 14 countries and 
17 ports in those countries.
    Mr. Linder. Let me ask you again, if we are not 
inspecting--you and I talked about this. If we are not 
inspecting things going out, what right do we have to expect 
other nations to clear these containers for us coming in?
    Mr. Huizenga. You are correct in pointing this out as an 
issue. It comes up and, frankly, it is one of the issues that 
we have had to deal with as we are trying to negotiate 
agreements with our foreign partners.
    I think, as Mr. Ahern pointed out, we try to suggest to 
them that we feel like after 9/11 we are a particularly unique 
target, and from that standpoint we are trying to do everything 
we can to try to make sure that doesn't happen again.
    Mr. Linder. Do other nations think we are a unique target?
    Mr. Huizenga. I presume some think we are a unique target 
and others resist that belief, thinking perhaps they have some 
risk themselves.
    Mr. Linder. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank you all for your testimony today.
    I am going to begin, if I could, Mr. Oxford, first of all, 
I want to thank you for--Vayl, I want to thank you for hosting 
us out at the nuclear test facility, and that gave the chairman 
and other members the opportunity to see exactly what you are 
doing out there. And it is an impressive operation. Even though 
you are just beginning the stage of standing up the test site 
out there, I think it is impressive and it is very important.
    I would like to begin, if I could, first of all, with the 
March 06 GAO report. It stated that it is highly unlikely that 
DHS will complete the deployment of radiation portal monitors 
until after 2009 due to lack of sufficient funding.
    What is DNDO doing to accelerate the deployment of 
radiation portal monitors at U.S. ports of entry?
    Mr. Oxford. First of all, let me thank you for having come 
out to Nevada test site. I was out there again this week, and 
significant progress on the permanent test site has been made. 
We are almost 70 percent done and we will turn operational 
later this fall.
    We have worked very closely, first of all, with CBP to come 
up with a joint development or joint deployment plan. Our 
methodology wasn't just to look at technology, but was to look 
at blends of technology based on the operational workload. And 
we have now devised a joint strategy that would allow us to put 
current generation systems at low-volume locations with the 
next-generation systems in a secondary mode. It significantly 
reduces risk, but also reduces cost.
    If we had gone solely to a next-generation system, which is 
where we were this time last year, it was about a $3 billion 
proposal. We have now been able to cut the deployment strategy 
cost down to about $1.4 billion by working closely with CBP, 
understanding their actual operational burden. By doing that, 
we are able to cut the cost and therefore will be able to come 
up with an optimized deployment strategy.
    For example, I think Mr. Ahern mentioned the Secretary is 
on record as saying we will complete all of our major seaports 
that handle 98 percent of containerized cargo by the end of 
2007.
    In terms of containerized cargo at seaports, we will be at 
98 percent by 2007, and we think that is a tremendous 
improvement over where we may have reported to you last year.
    The land border crossings, again will provide significant 
capability; we will be requesting additional funds in 2008 as 
well.
    One thing you may recognize is that the DNDO budget was the 
largest single request in the 2007 budget in terms of Homeland 
Security's percentage increase; it was up 70 percent from 2006 
to 2007, so the trend is upwards in terms of spending in this 
area.
    So we can close the gap that you are talking about.
    Mr. Langevin. On that point, I know that the President's 
budget did request $536 million for DNDO. And right now, the 
Homeland Security Appropriations bill that is being considered 
today only has $500 million and so it is $36 million short.
    So if you are not given the full $536 million, where are 
you going to have to cut because you are not going to get that 
additional $36 million?
    Mr. Oxford. We are working very closely, not only on the 
House side, but on the Senate side, to make sure that, first of 
all, acquisition funds are retained. I will tell you my number 
one priority is go ahead and commit to the deployment of 
systems. We will have to offset that either through some delay 
in some of the programs on the R&D side or other measures 
within the program, like our longer-range research. But our 
commitment and our priority is on the acquisition money so, 
again working with CBP, we implement the strategy we have now 
developed.
    Mr. Langevin. I am in the process now of trying to offer an 
amendment to include the additional $36 million in the Homeland 
Security Appropriations bill, so that DNDO is funded. I 
certainly hope my colleagues will join me in making sure that 
funding is there.
    Last question before my time runs out, the DNDO, I know is 
in the process of announcing the award for the advanced 
spectroscopic portal monitors. At the Nevada Test Site. You had 
mentioned that the award would be announced in April.
    Can you tell me when the award is going to be announced?
    Mr. Oxford. Let me give you some detail without divulging 
source selection information.
    We had a very robust response to our Request for Proposals. 
We did find in the course of the initial stages that there were 
several vendors that were not competitive, and we have now gone 
and debriefed them. And we are releasing a revised RFP this 
week that will clarify some of the issues that we still need to 
deal with, with the remaining vendors. We expect those 
proposals then by the middle of June. I am expecting to sign 
the source selection decision on or about 6 July.
    Mr. Langevin. I just want to conclude by again thanking you 
all for your testimony. In particular, I have had a great deal 
of interaction with Mr. Oxford. I am impressed by him and with 
DNDO.
    And the work that you are doing is obviously important to 
the Nation, and I appreciate your leadership. Thank you.
    Mr. Oxford. Thank you.
    Mr. Ahern. Congressman, if I could add some specifics for 
the current implementation rate of radiation portal monitors at 
our seaports. I think it is important for the record to show 
that we have had substantial improvements since the GAO report 
was done. Ninety percent of all cargo containers coming across 
the border from Canada into the United States are screened 
through radiation portal monitors today. Ninety percent of all 
trucks coming from Mexico into the United States are scanned 
today.
    And I had the opportunity to testify before many of you 
throughout the port security hearings back in and--March and 
April, and we were at 44 percent at that point. We are at 57 
percent of the sea containers now. Coming into the country 
today are now put through radiation portal monitors before they 
enter into the commerce of the United States. And we will be at 
98 percent by the end of fiscal year 2007.
    There is considerable progress.
    Mr. Linder. Mr. Gibbons, do you wish to inquire?
    Mr. Gibbons. Very briefly, Mr. Chairman.
    Gentlemen, thank you for being here. We appreciate your 
presence and we appreciate your testimony, hoping it is not a 
great deal. Forty-four seaports, 75 percent of the cargo; 58 
seaports, 85 percent of the cargo; obviously a diminishing 
number as we continue on.
    Any chance of giving us a time frame when you will have a 
majority of those seaports under a CSI or other type of 
agreement?
    Mr. Ahern. I would be happy to give you specifically where, 
with the 44-seaports, we have 75 percent of the container 
traffic. We will actually be, by the end of this fiscal year, 
at 50 seaports, which will get 82 percent, and we are hitting 
the point of diminishing returns.
    The additional container traffic we add with the ports 
remain; we will go to eight more ports in fiscal year 2007, 
which will get us to 85 percent.
    And I think it is important to put in context as we talk of 
the overseas footprint and what it would take, there are 
actually 704 ports that will ship to the United States. So you 
can see, with 58 ports, that will bring us to 85 percent. You 
do hit a rapid point of diminishing returns when you take a 
look, really, at the logistics of the global supply chain that 
ships container traffic to the United States.
    Mr. Gibbons. Is there any way to get 100 percent coverage? 
Or is that simply a goal that is well beyond our financial 
capability?
    Mr. Ahern. I will again state some of the numbers.
    I think, certainly, 100 percent is a challenging goal. Is 
it a realistic goal? My opinion is no. When you take a look, I 
think we need to make sure as far as, what is the risk, assess 
that risk and deploy according to that risk.
    I believe with the 58 ports that we will be at by the end 
of next year and capturing 85 percent of that universe, I think 
that is sufficient to manage the risk, in my opinion.
    Mr. Gibbons. Is there any way to direct the 15 percent 
balance to--of the cargo that is coming in, that doesn't today 
come through one of these 58 ports, to one of these other 
ports? Can we manage that cargo routing so that it does go 
through a port?
    Mr. Ahern. That certainly is an option. That would 
certainly be a lot of impact to the global supply chain and to 
the carrier movements throughout the world.
    But what I would offer is an additional alternative to 
consider, something we are considering as we move forward into 
the fall with Pakistan. It is a very small universe of 
containers that come to the United States. So if you were to 
look at it just by volume alone, it may not make sense to 
deploy assets there. But through some of the technology that is 
emerging, we have a declaration of principles that has been 
signed with the Government of Pakistan. Our ambassador signed 
it over there about 3 months ago. And we will be deploying 
technology there so we can begin to test remoting the images 
back to the United States.
    Again, the universe is only about 3,000 containers. We 
think that is a manageable universe to actually use the 
technology, have it remoted back, so we can look at some of 
these locations where it may not make sense to deploy a 
complete footprint of assets, but also as far as the technology 
capabilities that might be there. And we are going to work with 
the Government of Pakistan to have an embedded unit there to 
provide some assistance if we need to intervene.
    Mr. Gibbons. Let me ask one more question along that line, 
because if we are looking at 15 percent of the cargo coming in 
that hasn't gone through one of our national agreement security 
protocols, do we have in place the ability to add extra 
security screening to that amount of cargo coming through these 
isolated, few ports so that when it gets here, it is identified 
that it does require additional screening?
    Mr. Ahern. I would offer several points for consideration 
on that.
    First off, I would just again state that 100 percent of all 
the information of all the container traffic coming to this 
country is fully vetted through our automated targeting system, 
and we always have the ability, if it is coming from any one of 
those 704 ports to issue a Do Not Lade order to the carrier. So 
if it poses a significant risk we can't resolve through our 
information or intelligence systems, we will give a Do Not Lade 
order to that container. So that is the first opportunity.
    And if we believe it doesn't pose an imminent risk en 
route, we have assets that can meet it upon arrival, as it is 
anchored before it comes into a port, and take some of the 
mobile technology out to board the ship and actually inspect 
that container. And also with the recent deployment of the 
mobile RPMs, we can actually be there shipside to run it 
through the mobile RPMs as it is being offloaded from the 
vessel, right alongside the ship that it is being discharged 
from.
    So there are some advancements that are coming online that 
really give us the potential to provide a better level of 
security, beyond just the ones that are in the terminal as they 
enter into the commerce of the United States.
    Mr. Gibbons. Very briefly, Mr. Oxford, the Nevada Test 
Site, are we seeing an increase in the number of vendors, 
private vendors, who are taking advantage of the facilities out 
there with regard to their R&D, and in terms of development and 
testing of screening devices for nuclear materials?
    Mr. Oxford. In some cases, we have had to turn customers 
away as we try to figure out how to do the cost management 
associated with conducting a test for individual organizations, 
as opposed to what I will call ``running campaigns'' as we 
accumulate customers.
    But the test bed is now known, and we are now coming up 
with a strategy by which we could probably host two campaigns 
per year that we would then ``agglomerate,'' if you will, the 
number of customers that could come at any given time. If they 
are not a federally funded program, for example, if private 
vendors want to validate the performance of their equipment, we 
will give them the opportunity to do that under a controlled 
environment.
    Mr. Gibbons. Thank you.
    Mr. Linder. Does the gentleman from Mississippi wish to 
inquire?
    Mr. Thompson. Yes, thank you, Mr. Chairman.
    In March of this year, I wrote Secretaries Chertoff and 
Bodman a letter concerning the Megaports agreement with 
Hutchison Port Holdings in Freeport, Bahamas. And I received a 
response from the Department of Energy, but to this date I have 
not received a response from the Department of Homeland 
Security.
    Mr. Ahern, can you give me an idea of when I would be able 
to receive a response on this?
    Mr. Ahern. Unfortunately, I do not have specifics. But I 
would be happy to provide that back, sir.
    Mr. Thompson. Mr. Chairman, you know every hearing we kind 
of go through months of delay in getting information back to 
the committee. One of the reasons, when I requested this 
hearing, is, I needed a response back so we could kind of 
balance what was being said.
    And we continue to have this difficulty from DHS on 
responding to congressional requests, either individually from 
Members or congressional inquiries.
    So I would like the record to reflect that that March 24th 
letter to Secretary Chertoff is still outstanding. And we need 
to get it resolved.
    Now, on the other issue, there are some who would say that 
Megaports and DNDO are doing some of the same things. Why will 
we need both operations at a port? And can somebody explain why 
we would have two separate entities join certain inspections?
    Mr. Huizenga. Thank you. I will take an opportunity to try 
to answer that.
    I think it is important for people to recognize that we are 
doing slightly different things, and we build on essentially 
the expertise within the National Nuclear Security 
Administration. We are the nuclear experts. So we are there to 
help Mr. Ahern's people, who don't have that same expertise 
necessarily, to try to find nuclear materials.
    You have suggested, and the chairman, that we need to work 
closely together. And I think my goal here today is to try to 
convince you that indeed we are. We really do have regular 
interactions. We regularly send our staff on trips to the same 
seaports together.
    Al Gina, the head of CSI, and I commissioned Sri Lanka 
earlier this year together. We are on our way to Hong Kong this 
weekend. So we have found each other and we are working 
closely.
    What can we provide the CSI people on the ground who are 
checking manifests, working their ATS system. We provide the 
technology in a sense to be able to help them make sure that 
there isn't radioactive material in those containers.
    I think, Mr. Chairman, you asked earlier, would it be 
possible for us to feed real-time data to the CSI people on the 
ground. And indeed that is exactly what we have committed to 
do. So for the DOE-Megaports monitors, we are now negotiating 
and discussing with the host countries the need to feed a 
direct live feed to Mr. Ahern's people or the CSI people on the 
ground.
    So these suggestions that are coming from the committee 
members and others, I think we have taken to heart and we 
recognize the importance of closely working together.
    And if I may, with all due respect, I really think at this 
point if there was a series of serious attempts to move the 
program, I think we would be going backwards instead of 
forwards, because we are taking the strengths of both agencies 
at this point and working very closely together.
    Mr. Thompson. Are you using similar equipment?
    Mr. Huizenga. No. The equipment we are using is radiation 
portal monitors and Mr. Ahern's people are using--the host 
countries are actually using is imaging equipment, x-ray or 
gamma ray equipment. So it does completely different things.
    We are putting up things that detect radiation. They are 
putting up things that x-ray containers to see what is inside 
the containers.
    As Mr. Oxford mentioned, combining those two activities 
together, which is what we are currently in the process of 
trying to do, and linking the information that comes from both 
systems will be important to us to help accelerate the 
examination of these containers. But it is really--it is 
separate types of equipment with separate purposes.
    So I can understand if people thought that the CSI people 
were putting the same equipment in place that the DOE people, 
that there would be some confusion. But indeed it is different 
equipment. And we make it very clear when we go to the host 
nations that we are a complementary exercise.
    Mr. Thompson. Well, then, do we now have the staffing to 
accommodate that?
    Mr. Huizenga. Are you asking whether we have enough staff 
to make this happen?
    Mr. Thompson. Yes.
    Mr. Huizenga. As we continue to negotiate and be successful 
in signing up more countries, I am pressing my management for 
more staff.
    And as the chairman asked me earlier, so we are in 14 
countries and 17 ports, I neglected to point out that there are 
10 more likely to sign up in the very near future; and I will 
be going back to my management and asking them for staff to 
make sure that we can properly take care of that business.
    Mr. Linder. Does the gentleman from Pennsylvania wish to 
inquire?
    Mr. Dent. Thank you, Mr. Chairman.
    Also, to Mr. Oxford, thank you for hosting us at the DNDO, 
earlier this year at the Nevada test site. Mr. Gibbons's 
district was very helpful and I enjoyed the experience.
    On the issue of Hong Kong, we hear quite a bit about Hong 
Kong has a system where they can inspect or scan 100 percent of 
outgoing cargo. I have been told that the problem we are faced 
with is that we can't basically view all those images. I am 
also told--correct me if I am wrong--that it takes 6 minutes to 
scan each image.
    Mr. Ahern. If I could first add my thoughts on it, I have 
had the opportunity to go see it; I was there in the fall of 
this year. And currently it is in one lane of one terminal and 
also an additional lane of a second terminal in Hong Kong and 
there are multiple lanes of trucks that come through there.
    The current capability of throughput is running about 300 
trucks per hour through that one lane in each one of the two 
terminals. The radiation capability, using the same RPMs we 
have on our land border here in the United States.
    Mr. Dent. Same technology?
    Mr. Ahern. Same technology both for radiation portal 
monitor and also for the x-ray system, the VAC system.
    Mr. Dent. Are those the same portals we witnessed at the 
Nevada test site?
    Mr. Oxford. We had both the current generation, that are 
fielded at our borders, as well as the next generation on 
display.
    Mr. Dent. Continue.
    Mr. Ahern. So we have both complementary systems working 
because we believe we need to have the radiation read and also 
to take a look at the radiography to see if there is any 
anomaly that could be shielding any type of device in that 
container.
    As it is currently being modeled--this is where we have 
been trying to continue to correct the record on this--we 
believe the concept has great potential. In its current 
application it is not a realistic test. We need to work with 
the contractor involved with it, and we are and have been for 
the last couple of months taking a look at pulling the data 
files, making sure that the threshold settings are appropriate, 
and then we will take a look as far as what can we then do for 
a concept of operation to respond to alarms that would occur.
    Mr. Dent. What do the folks in Hong Kong do? Once they run 
all those trucks through, you said 2 to 300 trucks an hour.
    Mr. Ahern. 300 trucks an hour is the average throughput 
through the two lanes.
    Mr. Dent. They take these images and if there is some kind 
of positive, what happens?
    Mr. Ahern. Nothing.
    Mr. Huizenga. They are storing the images now. They want us 
to come there and actually pipe the information to the host 
country and pipe it over to the CSI people.
    Mr. Ahern. Currently nothing is being done with those. It 
is being stored for data collection purposes by the contractor 
and that is what we have been looking at for the last couple of 
months. As for any kind of an operational perspective or 
concept of operations or any response from the host country 
nation, that was not built into this. That is why we are 
interested in how to get fully engaged to make sure we can put 
some operational sense into this technology because it has been 
misrepresented repeatedly with respect to what it is currently 
doing.
    Mr. Dent. So how do you develop the architecture in such a 
way that, okay, you can take the image but then have you to do 
something with that image? Can you explain, when you are 
talking in terms of what the next generation technology is? How 
do you get us from--to a realistic 100 percent scanning system 
that is reliable and effective and one that can sell to the 
public, not one that is not just not going to achieve what we 
think it will?
    Mr. Ahern. If I can begin with an operator's perspective 
and then hand it off to people with more technical expertise on 
the technology, I would be happy to do with that. First off, we 
need to make sure there is appropriate throughput and capacity 
in those lanes. We need to make sure that the technology works. 
We need to make sure that the radiation being read through the 
monitors or the next generation has the ability to detect 
certainly if there is any special nuclear material.
    We need to make sure that it also has the ability to 
eliminate what could be natural occurring radiation in the 
background or nuisance alarms. That is where next generation 
technology will help us.
    At the same time we need to have the capabilities looking 
with x-ray systems to find out if there is something in there 
that could be shielding it. Then we need to have that pushed 
into the operator's hands and be able to link back into the 
technological aspects of it.
    Mr. Dent. Stop right there with the shielding. How 
effective is the Hong Kong system in terms of shielding; in 
other words, you take an image in Hong Kong. If something is 
shielded, how reliable is the system?
    Mr. Ahern. Right now until we actually get on the ground 
and do a live testing, I think it would be inappropriate to 
comment on how effective it is. Certainly with the throughput 
that is currently happening and the lack of a good concept of 
operation, I think it is questionable, and need to put some 
rigor into it as we go forward.
    Again, we are intrigued by the options that this presents 
for the government to partner with the private sector, and we 
think that is a very good model for us to move forward on. A 
lot of it needs to be worked out with both DNDO, DOE. That is 
where Mr. Huizenga and some of our folks are going over this 
weekend to work with the contractor to find out more of what is 
going on so we can actually develop a good concept of 
operations with the appropriate protocols.
    Mr. Linder. Let me talk to the committee members. We have 
Mr. Dicks, Mr. Shays, Ms. Norton who still have questions. 
Would you like to submit questions in writing, would you like 
to ask them to stay here and come back after a series of four 
votes?
    Mr. Shays. We have 10 more minutes. If we could just divide 
the next 6 minutes, maybe we can cover it.
    Mr. Linder. Mr. Dicks.
    Mr. Dicks. I would like to ask my questions, if I could.
    Mr. Shays. Go for it.
    Mr. Dent. Yield back the balance of my time.
    Mr. Dicks. Let me ask you this quickly. On megaports, the 
administration's request for megaports in fiscal year 2007 was 
40 million, 33 million less than its fiscal year 2006 request. 
The House Appropriations Committee has approved 105 million for 
megaports in fiscal year 2007, Energy and Water appropriations.
    Why such a big cut in this program by the administration?
    Mr. Huizenga. Frankly, we were trying to monitor how 
quickly we were signing up agreements and--
    Mr. Dicks. It hasn't been a wonderful record.
    Mr. Huizenga. When we were building the budget we were 
anticipating where we would be and we submitted a budget 
appropriately. Now things are starting to come together and I 
think Congress is perhaps going to respond to the fact that if 
we had some additional agreements it would take some additional 
money to get the job done.
    Mr. Dicks. Okay. Again, and I am a layman here, why aren't 
you guys working together? You say you are but why have you not 
been more successful in getting joint agreements? Apparently 
you have got two, one in Oman and one in Honduras. Why can't 
you go in and say to this country we want to work with you on 
both CSI and megaports, and get an agreement? And CSI has done 
a lot better in terms of getting these agreements than 
megaports. Why is this?
    Mr. Huizenga. There is a fundamental difference between 
what the CSI people are trying to do and what we are trying to 
do. Our activities under megaports are significantly more 
intrusive. The host country has to staff up, find their own 
people to help resolve the alarms, and it could be a 
significant number of additional normal alarms.
    Mr. Dicks. So we don't staff this?
    Mr. Huizenga. We are not deploying DOE people in country.
    Mr. Dicks. If we want to be successful do we have to do 
that?
    Mr. Huizenga. I think our strategy right now is to try to 
partner with our CSI people who are already going to be in 
country and have them help to address some of the analysis.
    Mr. Dicks. Mr. Ahern, do you agree with that? Can you do 
that or are you having enough problems staffing your own 
progress?
    Mr. Ahern. We are not having any problems with staffing our 
CSI ports.
    Mr. Dicks. Can you do their work too?
    Mr. Ahern. I think it is a complementary role. I think it 
is important to state, going back to I believe May of last 
year, DOE and DHS Customs and Border Protection signed a joint 
agreement. As far as we moved forward, we would have joint 
undertaking with the foreign countries. In fact, now with our 
declaration of principles, we actually have them for both CBP 
and DOE with the host country counterpart.
    You are correct that two have been signed thus far, and 
there is commitment to do them together as we launch forward.
    Mr. Dicks. How many ports are you talking about, 44 or 71. 
What is the number?
    Mr. Ahern. Forty-four is what we currently have and we are 
working with DOE to make sure, as we circle back to those 44 
ports, to have the appropriate radiation equipment installed as 
well.
    Mr. Dicks. Only four megaport agreement, right?
    Mr. Huizenga. We have 14 countries signed up, which 
includes 17 ports and there are an additional 10 countries 
about ready to sign up, having an addition of more than 10 
ports. Our goal and commitment is to put the radiation 
detection equipment in each of the 44 CSI ports.
    Mr. Dicks. In order to give you a chance to ask questions, 
I will yield to you.
    Mr. Shays. [Presiding]. I appreciate that.
    Gentlemen, when you do FBI work and you do fingerprints, it 
is done automatically. The computer can spit back to you 
matches. Why can't we develop technology that would alert us 
without people having to study these pictures? Is that on its 
way, and is it is on its way fairly quickly?
    Mr. Oxford. Mr. Shays, the CAARS program that I have 
referenced in my opening statement is exactly intended to do 
that--to look at shielding and do an automated alert to the 
operator that there is something in the cargo we have to 
inspect.
    Mr. Shays. Not just on radiation but other issues as well?
    Mr. Oxford. Correct.
    Mr. Shays. Let me ask you, what states, let's do it this 
way, what foreign states have been resistant to participating 
with us and what are the reasons?
    Mr. Huizenga. Well, we have run into--the chairman asked 
earlier about the reciprocity issue; some states actually ask 
us this question, are you going to do a reciprocal scanning of 
containers outbound?
    Mr. Shays. What states? What states are we finding most 
resistant? It is not an indictment against them, just have a 
problem.
    Mr. Huizenga. Frankly, the Japanese have asked that 
question repeatedly.
    Mr. Shays. I will tell you, if I was a foreign nation I 
would ask it. What other ones?
    Mr. Huizenga. Almost all countries ask the question. Some 
are more recalcitrant than others.
    Mr. Shays. If you want to be on the positive, which are the 
most cooperative?
    Mr. Huizenga. It took 2 weeks to sign up Sri Lanka. So it 
didn't take them any time at all to figure out it was an 
important activity. I don't know--
    Mr. Shays. Dubai has been very cooperative.
    Mr. Huizenga. Dubai was on board from the day we started 
talking to them.
    Mr. Shays. Are there some that are very, very resistant? 
You mentioned the Japanese. What other ones?
    Mr. Dicks. Can I ask one quick one? What about Freeport. 
What is the status with Freeport?
    Mr. Huizenga. Freeport, we are doing operational testing 
right now and things are going well.
    Mr. Dicks. Has there been a capacity assessment problem 
there?
    Mr. Huizenga. I am not sure that I understand--
    Mr. Dicks. Let me read this. We would like to know the 
status of CBP's efforts to get customs folks in Freeport as 
part of CSI and whether the capacity assessments to date have 
revealed any concern about Freeport's participation as a CSI 
port?
    Mr. Shays. I leave that question with you so you know 
exactly what he is asking and I will reclaim my time. Leave it 
in writing with him, okay.
    Is that all right, sir?
    Mr. Dicks. That is fine.
    Mr. Shays. Just quickly to finish up here, I would like you 
to provide to the committee which states we have the biggest 
concern about corruption, improper operations, and so on. The 
GAO has voiced some concerns. It doesn't have to be a public 
document to us, and I will make sure the committee will follow 
up on that. I do want the answer to this. If you would tell us 
which ones we have the biggest concern.
    And let me ask you, finally--I will end with that. 
Gentlemen, thank you very much. Is there anything--excuse me. 
Before we adjourn, is there anything we should have put on the 
record that we didn't, anything that you wish we had asked that 
we didn't ask? Seriously. Those are sometimes the best answers. 
Anything before you leave?
    Hearing none, let me just thank you for your work and thank 
you for cooperation with this committee and we stand adjourned.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                             For the Record

  Questions From Representative John Linder For Jayson Ahern Responses

    On March 24, 2006, Representative Bennie Thompson sent a letter to 
Secretary Michael Chertoff of the Department of Homeland Security and 
Secretary Samuel Bodman of the Department of Energy. The letter 
pertained to the operation of detection equipment under DHS's Container 
Security Initiative and DOE's Megaports program and contained four 
specific questions.
    It is important that the Committee members receive prompt responses 
to questions they pose to the Department. Mr. Thompson has received a 
written response from Secretary Bodman but has yet to receive a written 
response from Secretary Chertoff or his designee. We understand there 
were mitigating circumstances but remain interested in a response.
    Question: When can Mr. Thompson expect to receive an answer from 
DHS to the questions contained his letter of March 24?
    Response: Immediately after receiving Representative Thompson's 
letter, DHS congressional affairs coordinated a meeting with members of 
his staff for the purpose of personally addressing all concerns raised 
in that correspondence in lieu of a written response. DHS regrets this 
miscommunication; a written response has been formulated and is 
forthcoming. Please excuse the delay in the transmission of this 
letter.

            Questions from Representative Christopher Shays

    1. Concerns about the adequacy of foreign inspection protocols, the 
operation of detection equipment, and its vulnerability to tampering or 
neglect have been raised. These issues have been discussed in a recent 
GAO report ``Combating Nuclear Smuggling: Corruption, Maintenance, and 
Coordination Problems Challenge U.S. Efforts to Provide Radiation 
Detection Equipment to Other Countries.'' Russia was mentioned 
specifically in the report as a State where evidence of some of these 
problems has been found. The Committee would like to understand how 
widespread this concern is and what actions have been taken to limit 
such vulnerabilities.

    Question: What States do you have the greatest concerns with in 
terms of possible corruption and/or the improper execution of screening 
and inspection protocols?
    Response: With respect to CSI, CBP has negotiated measures and 
procedures where it does operate to address any concerns of possible 
corruption and the screening and inspection of targeted shipments. 
These procedures include being present during the examination and 
viewing the x-ray image and discussing any findings with the host 
government officials, providing them with our recommendations.
    Additionally, CBP presently has an Agreement with The Government of 
The Russian Federation on Cooperation and Mutual Assistance in Customs 
Matters even though CSI does not actually operate in Russia. Through 
this Agreement, the U.S. and Russian governments have affirmed their 
commitment to the facilitation of the legitimate movement of goods and 
individuals and will, by mutual arrangement of the Customs 
Administrations, undertake measures to improve customs systems, 
techniques, and procedures with a view toward achieving that objective 
in accordance with the provisions of this Agreement. More details about 
this agreement are available on CBPs website at: <http://cbpnet/
linkhandler/cbpnet/ina/maa/Russian_Federation.ctt/
Russian%20Federation.doc>.
    The Department of Energy's (DOE) Second Line of Defense program has 
also recognized corruption as a major problem and has designed its 
installations using practical, verifiable means to reduce opportunities 
for corruption. DOE also reports that its National Nuclear Security 
Administration (NNSA) has been working for years to understand and 
address the effects of corruption and criminal activity on cooperative 
security programs.

    Question: In each case, what steps are being taken to limit 
vulnerabilities?
    Response: CBP has negotiated appropriate measures to address any 
vulnerability, and would be happy to meet with Representative Shay and 
his staff or other Members and staff to discuss the measures we have 
taken in an appropriate venue and upon their request, due to the 
sensitive nature of this information.

    2. During the hearing, it was noted that States have responded in 
different ways to U.S. requests to participate in CSI and Megaports. 
Some states such as Sri Lanka agreed to participate within a few weeks, 
others remained reluctant to participate after months or longer of 
negotiations.

    Question: What States have been the most reluctant to participate 
in CSI and Megaports respectively? Are they key States? What reasons or 
concerns have they raised?
    Response: Regarding CSI, the track record of success has resulted 
in foreign governments now approaching CBP to participate in the 
program. CBP has completed the initial phase of CSI, comprising the top 
20 foreign seaports with the most direct maritime cargo containers 
destined to the United States, in July 2005 when all top twenty foreign 
seaports became operational. CSI is currently operational in forty-four 
seaports covering 78.44 percent of maritime cargo destined to the 
United States. By the end of 2006, CSI will be operational in fifty 
seaports covering 81.77 percent of maritime cargo destined to the 
United States. Additional host governments are currently being 
considered for the CSI program and are in various stages of the process 
from signing a Declaration of Principles to becoming operational. CBP 
defers to DOE/NNSA to address issues relating to Megaports.

    Question: What reasons have been given by the top 5 ports in 
Megaports' prioritization model for not agreeing to participate?
    Response: As stated above, the top twenty foreign seaports 
identified by CBP have become CSI operational ports. CBP defers to DOE/
NNSA address issues relating to regarding Megaports prioritization.

    Question: What steps have been taken to address the concerns raised 
in these cases?
    Response: As the top twenty seaports with the greatest volume of 
maritime container traffic destined to the United States are now 
participating in CSI, CBP has no concerns that need to be addressed. 
CBP defers to DOE/NNSA to address issues relating to Megaports.

             Questions from Representative Bennie Thompson

    Question: 1. Megaports is planning to deploy equipment to forty-two 
foreign nations, yet only four have fully operational Megaports 
systems. In addition, the Megaports status sheet shows that twenty 
nations still do not have Megaports agreements. Eleven of these have a 
CSI agreement in place. What is being done to leverage existing 
agreements with foreign ports?
    Response: CSI continues to leverage the WCO Framework of Security 
Standards (adopted in June 2005) as a basis for persuading foreign 
partners to employ radiation detection equipment at their seaports. The 
Framework incorporates the use of radiation detection and imaging 
systems in the seaport environment. DOE/NNSA will be presenting the 
Megaports program at the annual CSI conference of current and 
prospective foreign partners to discuss best practices. DOE/NNSA 
Megaports will have a separate workshop to market the program and 
invite foreign governments to join.

    2. Mr. Huizenga, a March 2005 Government Accountability Office 
(GAO) report concluded that DOE is struggling to reach agreements with 
foreign governments and does not have a long term plan for Megaports to 
guide the implementation of this program in the future.

    Question: What steps is the Department of Energy (DOE) taking to 
address the GAO conclusions?
    Response: The Department of Homeland Security defers to the 
Department of Energy for the response to this question.

    3. According to the Administration's budget request, Megaports 
would receive $33 million less than last year ($73 million in FY06, $40 
million in FY07). The Energy and Water Appropriations bill currently 
moving through the House would increase funding by $65 million above 
the Administration's request.
    Question: Mr. Huizenga, why did the Administration cut your budget 
and what impact does this have on the Megaports program?
    Response: The Department of Homeland Security defers to the 
Department of Energy for the response to this question.

    4. One of the biggest weaknesses in the Container Security 
Initiative (CSI) is that high-risk containers transshipped through a 
CSI port are not inspected overseas, because of the difficulty of 
unloading a ship to inspect a container.

    Question: Mr. Ahern, what steps is Customs and Border Protection 
(CBP) taking to close the security gap with regards to high risk 
containers that are transshipped through a CSI port?
    Response: Containers laden (loaded) on a vessel at a CSI port are 
subject to analysis and possible examination by the in-country CBP CSI 
officers and their respective host government counterparts.
    Containers remaining on the vessel as Freight Remaining on Board 
(FROB) as the vessel transits a foreign seaport en route to the United 
States are subject to the following enforcement protocols: (1) All 
maritime containerized cargo information is required to be sent to CBP 
twenty-four hours prior to that container being put on the vessel that 
will be bringing the cargo to the United States. (2) The information 
transmitted is screened at the CBP National Targeting Center (NTC) via 
the Advanced Targeting System (ATS). (3) If CBP suspects that a 
container poses an imminent risk, CBP can issue a ``Do Not Load'' 
order, can work with the host government to have the container 
examined, or can advise the carrier and seek their assistance in 
ensuring any concerns are mitigated. In addition to the steps taken 
above, CBP also utilizes the Customs Trade Partnership Against 
Terrorism (C-TPAT) program to enhance security measures throughout the 
supply chain, including the place of stuffing. Additionally CBP is 
working with industry members to develop an advanced container security 
device that can be placed in a container at place of origin and help 
secure the integrity of the container while transiting the supply 
chain.

    Question: Mr. Huizenga, is DOE addressing the transshipment issue 
in Megaports or through other Second Line of Defense programs? Have you 
looked at deploying equipment in smaller feeder ports?
    Response: The Department of Homeland Security defers to the 
Department of Energy for the response to this question.

    5. It is widely known that the current version of the radiation 
portal monitors have a high false alarm rate because they cannot 
distinguish between special nuclear material and naturally occurring 
nuclear material. We have received testimony that the monitors deployed 
at U.S. seaports have as many as 150 false alarms in a day.

    Question: Mr. Huizenga, is Megaports experiencing the same problem 
in its installations? If so, how are those alarms resolved?
    Response: The Department of Homeland Security defers to the 
Department of Energy as to the response to this question.

    6. In December 2003, former CBP Commissioner Robert Bonner stated 
the CBP will ``red team'' (or test) the soundness of its container 
security programs, particularly C-TPAT, to determine if the program is 
improving supply chain security. CBP officials however, have stated 
that to date, there have been no red team exercises for C-TPAT.
    Question: What is CBP doing to evaluate whether C-TPAT is actually 
preventing terrorists from taking advantage of weaknesses that exist in 
the supply chain to smuggle weapons of mass destruction in the U.S.?
    Response: CBP has not conducted ``red team'' tests of the C-TPAT 
program. To determine the effectiveness of the enhanced security 
measures employed by C-TPAT members, CBP has significantly increased 
the number of on-site verifications or validations it performs. To 
date, CBP has completed over 2,400 validations of the 6,100 members (or 
forty percent of the membership), a significant increase over the 403 
validations that had been completed in January 2005. These on site 
validations confirm that the C-TPAT members have adopted stronger 
security measures throughout their supply chains, reducing the 
likelihood that a C-TPAT shipment will be compromised and exploited by 
terrorists. CBP is also currently developing performance measures to 
help demonstrate the effectiveness of C-TPAT as an anti-terrorism 
program.

    7. The GAO has stated that unbalanced staffing at CSI ports has 
resulted in thirty-five percent of the containers shipped through these 
ports not being targeted, and therefore not subject to inspection 
overseas. This means that it is likely that high risk containers were 
not inspected.

    Question: What is CBP doing to fix the staffing imbalances 
mentioned in the GAO report? How many CSI ports have permanently 
assigned personnel?
    Response: Based upon the findings of the GAO, CBP adjusted the CSI 
staffing levels by assigning dedicated CSI staff to the CBP National 
Targeting Center. This dedicated staff augments the work being done at 
large volume CSI locations like Hong Kong. CBP has currently 
transitioned twenty-six of the CSI ports to permanent staff.

    8. One of the major issues with container security is the absence 
of seal standards. The MTSA requires standards be developed for 
container seals and locks. These standards have never been established. 
Additionally, the MTSA regulations require that seal verifications take 
place when a container is moved through a port. However, I have heard 
from many port workers that this does not occur.

    Question: Why has it taken the Department three and a half years to 
develop seal standards? When will the container seal regulation be 
issued?
    Response: In September 2004, the Department announced that DHS, 
pursuant to 46 U.S.C. 70116 and section 111 of the Maritime 
Transportation Security Act of 2002 (MTSA), would pursue a mandatory 
requirement that ocean carriers verify the application of high security 
seals on all loaded containers destined for the United States. 
Subsequently, CBP drafted a Notice of Proposed Rule- Making (NPRM) that 
would require sealing and verification of a seal on loaded containers 
being transported by vessel to the United States. The draft NPRM 
remains under review in the Department of Homeland Security, Office of 
General Counsel.
    It should be noted, however, that CBP has moved to complement this 
proposed rule by strengthening sealing requirements within the Customs-
Trade Partnership Against Terrorism (C-TPAT) program. As an example, 
minimum security criteria for C-TPAT importers requires that for all 
loaded containers destined for the United States, a high security seal 
meeting the current PAS ISO 17712 standard must be applied to the 
container. Additionally, minimum security criteria for C-TPAT sea 
carriers requires that container integrity for all containers in the 
sea carrier's custody be maintained to protect against the introduction 
of unauthorized material and/or persons. C-TPAT sea carriers must have 
procedures in place to maintain the integrity of the shipping 
containers while in their custody. Lastly, sea carriers must fully 
comply with seal verification rules and seal anomaly reporting 
requirements once promulgated and mandated by the U.S. government.
    Under the MTSA, the U.S. Coast Guard regulates vessel and facility 
security (33 CFR 104 and 105) including access controls and security 
requirements at U.S. seaports. It is within the USCG's purview to 
address concerns regarding seal verifications required under 33 CFR.

    Question: 9. Could you study the possibility of deploying ICIS to 
CSI ports and get back to me within the month on your results?
    Response: The Department of Homeland Security (DHS) remains 
interested in ICIS. The concept of collecting and integrating radiation 
detection spectral data with radiographic imaging of containers 
complements and is consistent with our agency's goals.
    DHS remains committed to working with the Hong Kong government and 
the Hong Kong Container Operators Association (HKCTOA) in the 
development of policies, procedures, and response protocols related to 
ICIS. This will permit us to take full advantage of the investment that 
the Hong Kong shipping community has taken to strengthening the global 
supply chain.
    Pacific Northwest National Laboratory (PNNL), in conjunction with 
Oak Ridge National Laboratory (ORNL) and under the auspices of the 
Department of Energy's Megaports Initiative, recently completed an 
analysis of a large sampling of ICIS data files supplied by the HKCTOA.
    Initial findings have revealed that further work is required to 
optimize the technology and better utilize the data sets captured by 
ICIS. A team comprised of representatives from U.S. Customs and Border 
Protection (CBP), Department of Energy's Megaports Program, PNNL and 
ORNL are traveling to Hong Kong in the coming weeks in furtherance of 
this effort. The team also includes a Domestic Nuclear Detection Office 
(DNDO) representative to evaluate implications for the next generation 
of nuclear detection equipment. While in Hong Kong, the team will study 
the feasibility of providing CBP's Container Security Initiative 
personnel with a live data directly from the ICIS lanes. Additionally, 
the team will identify the necessary steps to network the ICIS system 
in order to provide DHS with the capability to remotely monitor in the 
United States.

    10. I understand that Secretary Chertoff observed the ICIS system a 
few weeks ago.
    Question: When will the Department make a decision on this 
technology so that sectors of the industry that are willing to purchase 
and install this system can begin doing so?
    Response: As indicated in our response to a previous question the 
Department of Homeland Security (DHS) remains interested in ICIS and in 
the concept of collecting and integrating radiation detection spectral 
data with radiographic imaging of containers, which complements and is 
consistent with our agency's goals. DHS also is committed to working 
with the Hong Kong government and the Hong Kong Container Operators 
Association (HKCTOA) in the development of policies, procedures, and 
response protocols related to ICIS in order to take full advantage of 
the investment that the Hong Kong shipping community has taken to 
strengthen the global supply chain.
    Since further work is required to optimize the technology and 
better utilize the data sets captured by ICIS, DHS is sending a team 
comprised of representatives from U.S. Customs and Border Protection 
(CBP), the Department of Energy's Megaports Program, Pacific Northwest 
National Laboratory (PNNL), and Oak Ridge National Laboratory (ORNL) to 
Hong Kong in the coming weeks to study the feasibility of providing 
CBP's Container Security Initiative personnel with live data directly 
from the ICIS lanes. The team also includes a Domestic Nuclear 
Detection Office (DNDO) representative to evaluate implications for the 
next generation of nuclear detection equipment. Moreover, this team 
will identify the necessary steps to network the ICIS system in order 
to provide DHS with the capability to remotely monitor in the United 
States.

    11. When I look at the CSI and Megaports programs, I see that they 
are they are trying to address the same problem, which is preventing 
weapons of mass destruction from being smuggled into the country though 
the supply chain. Currently, DOE is negotiating Megaports agreements 
with 32 of the 44 nations participating in CSI. Since both Departments 
are trying to accomplish the same goal in the same foreign ports, I 
wonder whether Megaports may work better if it was moved to DHS in the 
Domestic Nuclear Detection Office.

    Question: Mr. Huizenga, why should Megaports remain in DOE?
    Response: The Department of Homeland Security defers to the 
Department of Energy as to the response to this question.

    Question: Mr. Oxford, considering the goal of the DNDO to develop a 
global nuclear architecture, do you feel that moving Megaports to DNDO 
would allow for this to happen?
    Response: The development of the global nuclear detection 
architecture does not necessitate the transfer of Megaports to the 
DNDO. One of the founding principles of the DNDO is the belief that 
centralized planning and reporting with decentralized execution enables 
DNDO to fully utilize expertise from partner agencies to leverage, not 
duplicate, existing initiatives related to nuclear detection. Moving 
Megaports to the DNDO would violate this principle and provide little 
added benefit to the architecture development process.
    There are several coordination and information sharing mechanisms 
in place that allow the DNDO to incorporate a program like Megaports 
into the global architecture. These mechanisms include use of the 
Interagency Coordination Council (ICC), the policy coordinating 
committees of the Homeland Security Council and National Security 
Council, as well as the use of interagency detailees. These formal 
mechanisms form the foundation of what has become a strong working 
relationship with implementing partners like Megaports.
    The frequent dialogue with DOE personnel results in a thorough 
understanding of Megaports operations, technological requirements, 
reporting and information analysis needs--all of which are elements of 
the DNDO architectural analysis. As the global detection architecture 
evolves, the DNDO will bring forward options and recommendations to 
programs like Megaports. In fact, the DNDO is now working with DOE/NNSA 
to acquire ASP systems for deployment through the Megaports Initiative, 
further enhancing the broader U.S. strategy to scan incoming cargo 
before it reaches our borders. This demonstrates that the development 
of the global detection architecture, and proposed improvements to that 
architecture, do not require a management construct that infringes or 
subsumes the statutory responsibilities of partner agencies.

    Question: Considering that DOE is trying to place Megaports at many 
of the same ports as those participating in CSI, why isn't DOE 
leveraging the existing CSI agreements to accelerate portal monitor 
deployments through the Megaports Initiative?
    Response: The Department of Homeland Security defers to the 
Department of Energy for the response to this question.

    Question: Why can't there be one U.S. government position requiring 
foreign ports to participate in CSI and C-TPAT?
    Response: CBP does have a single position when it comes to securing 
the global trade lanes from terrorist activities in a maritime 
environment. CBP employs a multi-layered strategy in protecting the 
trade with the following programs: Container Security Initiative (CSI); 
Customs Trade Partnership Against Terrorism (C-TPAT); National 
Targeting Center; and 24-hour Rule. Both CSI and C-TPAT are voluntary 
programs and CBP believes that both programs are functioning as they 
were designed.
    The CSI and C-TPAT programs are part of an overall layered defense 
strategy, which is predicated on the belief that several different 
programs, from security at the source to screening at a port of entry, 
provide many opportunities to stop a potential threat from reaching its 
intended target. A layered defense reduces risk while not hinging 
success on participation in a single program.
    While the Department hopes to maximize the number of foreign ports 
that participate in programs such as CSI and C-TPAT, making 
participation a requirement would be difficult to enforce and could 
negatively affect the free flow of commerce. CBP believes that the C-
TPAT program should remain a voluntary, incentives based partnership 
program. C-TPAT was initiated to help enhance security throughout the 
international supply chain, from point of stuffing, through the final 
delivery in the United States. CBP is able to reach deep into the 
international supply chain, especially to the two most vulnerable 
points--the point of stuffing and the inland drayage to the port of 
export--by offering U.S. importers trade facilitation benefits in 
exchange for pushing security enhancements back throughout the supply 
chain, into areas outside the regulatory reach of the U.S. government.
    A regulated program may not be able to effectively influence the 
actions needed on foreign soil. Additionally, a regulated program would 
likely take a ``one size fits all approach'' and could reduce the 
current flexibility afforded through the C-TPAT program. A voluntary, 
incentives-based program, by contrast, allows for customization of 
supply chain security measures based on risk and operational realities.

    12. I wrote a letter to Secretaries Chertoff and Bodman on March 
24, 2006 concerning the Megaports agreement with Hutchinson Ports 
Holding in Freeport, Bahamas. I received a response from the Department 
of Energy. I have not received a response from DHS. I don't like being 
flip, but I'm not surprised given DHS is habitually late in responding 
to this Committee.

    Question: Mr. Ahearn, when will I receive a response to my letter?
    Response: Immediately after receiving Representative Thompson's 
letter, DHS congressional affairs coordinated a meeting with members of 
his staff for the purpose of personally addressing the concerns raised 
in that correspondence in lieu of a written response. DHS regrets this 
miscommunication; a written response has been formulated and is 
forthcoming. Please excuse the delay in the transmission of this 
letter.

    Shortly after my letter, I learned that CBP is going to finally 
deploy a CSI team to Freeport.
    Question: When will the CSI team in Freeport be operational and do 
the capacity assessments performed by CBP give you concerns about 
Freeport participation in CSI?
    Response: CBP has performed capacity assessments of Freeport, 
Bahamas. CBP anticipates it will be operational in Freeport by the end 
of September, 2006. The two capacity assessments did not give rise to 
any concerns regarding Freeport's participation in CSI.

    13. Please provide to the Committee, the status of CBP's efforts to 
deploy Customs Inspectors to Freeport as part of CSI. Please also 
detail whether any of CBP's capacity assessments have revealed concerns 
regarding Freeport's potential involvement as a CSI port.
    Response: CBP is in the process of formalizing the addition of 
Freeport, Bahamas as a CSI port. The Declaration of Principles (DOP), 
which demonstrates the willingness of the government of the Bahamas to 
participate in the CSI program, has not been signed. The DOP is pending 
review by the Bahamian cabinet. Once this process is completed, CBP 
will work with the State Department to deploy CBP officers to begin the 
screening process of maritime cargo containers destined to the United 
States.

                                 <all>

</pre></body></html>
